<html>
<title> - [H.A.S.C. No. 114-20] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-20]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2016 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                 REQUEST FROM THE MILITARY DEPARTMENTS

                               __________

                              HEARING HELD

                             MARCH 17, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-222                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                        Spencer Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

James, Hon. Deborah Lee, Secretary of the Air Force, and Gen Mark 
  A. Welsh, USAF, Chief of Staff, U.S. Air Force.................     7
Maybus, Hon. Ray, Secretary of the Navy; ADM Michelle Howard, 
  USN, Vice Chief of Naval Operations; and Gen Joseph F. Dunford, 
  USMC, Commandant, U.S. Marine Corps............................     6
McHugh, Hon. John M., Secretary of the Army, and GEN Raymond T. 
  Odierno, USA, Chief of Staff, U.S. Army........................     3

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F........................................   198
    Greenert, ADM Jonathan W., USN, Chief of Naval Operations....   160
    James, Hon. Deborah Lee, joint with Gen Mark A. Welsh........   141
    Maybus, Hon. Ray.............................................    98
    McHugh, Hon. John M., joint with GEN Raymond T. Odierno......    68
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    67
    Thornberry, Hon. William M. ``Mac''..........................    65

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   237
    Mr. Graves...................................................   244
    Mr. Johnson..................................................   244
    Mr. Shuster..................................................   237
    Ms. Tsongas..................................................   237
    Mr. Walz.....................................................   242













THE FISCAL YEAR 2016 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                        THE MILITARY DEPARTMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 17, 2015.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Today, the full committee will examine the President's 
budget request for the armed services of the United States.
    I am pleased to welcome each of the service secretaries and 
most of the service chiefs today. On behalf of the committee 
and the people we represent, I want to thank each of you for 
your service to the Nation.
    Since January, this committee has focused on understanding 
the strategic environment and many of the complex security 
challenges facing the United States. I believe that in order to 
fulfill our responsibilities under the Constitution, to raise 
and support, provide and maintain military forces that meet the 
President's needs, it has been important for us to spend time 
understanding the specific challenges staring us in the face 
today as well as the longer term trends and where they are 
taking us.
    So over the last 2 months, the committee has had a variety 
of closed and open, classified and unclassified sessions with 
government and nongovernment witnesses as well as foreign 
leaders.
    We held the first-ever committee retreat with a number of 
distinguished speakers, including General Dempsey, and examined 
the past, the present, and the future.
    We have had sessions on the worldwide threats facing us, 
the status and trends of Islamic extremism, state-based 
security challenges, threats in various geographic regions, the 
status of conflicts in various geographic regions, and 
technological superiority and the pace of change.
    We have also received the recommendations of the 
compensation and retirement commission, heard from outside 
experts on the budget, and have studied ways to improve the 
Department's acquisition of goods and services.
    All of that work, I think, puts us in a better position to 
consider the administration's proposed budget.
    I am sure that members are going to have questions on 
specific programs that were included or left out of the 
administration's budget. I strongly believe that the job of the 
Congress under the Constitution and of this committee is to 
exercise independent judgment on how best to meet the Nation's 
security needs, giving a great deal of weight, of course, to 
the judgment of our military leaders, but not being a rubber 
stamp for any administration.
    History has proven the wisdom of having a separate branch 
making independent decisions. But whatever the details of the 
individual programmatic decisions, I also believe we all need 
to look at the total resources we devote to defense, which is 
now about 15 percent of the Federal budget, and we also have to 
consider the consequences if Congress approves significantly 
less defense spending than the President has asked for.
    And I would say to our distinguished witnesses, especially 
those in uniform, that this is the time to speak plainly. You 
know the dangers we face around the world. You know the damage 
that has already been done by a defense budget cut by one-fifth 
in real terms since 2010. And you know the difficult choices 
ahead of us even under the President's budget request.
    Finally, as I have thanked each of our witnesses for their 
service, I want to express appreciation to all members of the 
committee on both sides of the aisle for all of your work so 
far this year. On both sides, members have asked--have done--
have worked hard, asked very probing questions, trying to find 
the best answers for the security of the country, and I am 
proud to work with each of you.
    As most of you know, Ranking Member Smith is dealing with 
health issues and is not able to be with us this week. And ably 
sitting in his chair is the distinguished lady from California, 
Ms. Sanchez, who I recognize at this point for any opening 
statement.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 65.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman. And we do wish the 
quick return of Adam Smith.
    Mr. Chairman, thank you, and thank you for acknowledging 
that this has been a very tough year, already. And that we have 
some very severe budget constraints that may be coming out of 
the budget committee with respect to our resources here and how 
we allocate them for our military.
    And, you are right. It is in the purview of the Congress to 
make decisions about where we place the money. So this 
committee has a very difficult task ahead of it.
    I wanted to also thank our witnesses today. It is rare that 
we have service chiefs and our secretaries all in one room, so 
thank you so much. Today is, I hope, a hearing for some very 
constructive discussion about how we move forward.
    I also just want to acknowledge that it is also nice to see 
women on the panel. So, thank you for that. And we are thrilled 
to have you.
    Sequestration, I think that that has become such a 
distraction for the Congress. Certainly, I believe that we have 
to look at smarter and more efficient ways in which we can 
invest and also save. We do not have the capacity as a country 
to hand anybody, even our military, a blank check.
    So I hope that the Department, along with the Congress can 
work together to invest in resources that will give us the best 
value for our money. We have to invest in R&D [research and 
development]. We have to make sure that we don't have a hollow 
force. And we have to ensure that we can be an effective piece 
of what it takes to protect America and Americans.
    And I hope today's hearing will not only focus on the 
threat of sequestration, but that we will have a discussion 
about our economic state, where we can invest, and where we 
must save.
    And, again, I thank all of you for being before us. And I 
look forward to having a good discussion. And I am glad so many 
members have shown to this hearing.
    I also request unanimous consent to place Mr. Smith's 
opening comments into the record, Mr. Chairman. And I yield 
back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 67.]
    The Chairman. Without objection, it is so ordered.
    Again, let me welcome our distinguished panel of witnesses 
today. We have the Honorable John McHugh, the Secretary of the 
Army, a former member of this committee; General Ray Odierno, 
Chief of Staff of the Army; Honorable Ray Mabus, Secretary of 
the Navy; the CNO [Chief of Naval Operations], Admiral 
Greenert, had a family issue at the last minute, and so ably 
standing in for him is Admiral Michelle Howard, Vice Chief of 
Naval Operations; General Joseph Dunford, Commandant of the 
Marine Corps; Honorable Deborah Lee James, Secretary of the Air 
Force; and General Mark Welsh, the Chief of Staff of the Air 
Force.
    Again, thank you all for being here. Without objection, 
your full written statements will be made part of the record.
    And the only other comment I would make is when we get to 
questions, with this many members and witnesses, I am going to 
have to be careful about the clock. So if you want to spend 3 
minutes asking your question, you are going to get a very 
abbreviated answer.
    And I appreciate our witnesses as well as our members 
respecting the gavel as we try to give as many members as 
possible the chance to ask questions.
    Again, thank you all for being here.
    Secretary McHugh, the floor is yours.

 STATEMENT OF HON. JOHN M. McHUGH, SECRETARY OF THE ARMY, AND 
     GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF, U.S. ARMY

    Secretary McHugh. Mr. Chairman, thank you very much. Ms. 
Sanchez, good to be with all of you. Please pass our best 
wishes on to Mr. Smith, and his speedy recovery.
    And to all of you, the distinguished members of the 
committee, I would say how much we appreciate the opportunity 
to be here today and to talk very frankly about the danger that 
lies ahead, should this budget not be enacted and sequestration 
allowed to return.
    In short, it is amazing how much can change in a year. Over 
the last 12 months we have seen the geopolitical landscape 
morph at an astonishing pace, from renewed aggression by Russia 
and increased threats from North Korea to gains by radical 
terrorists in Iraq, Syria, and Yemen, not to mention the fight 
against Ebola, your Army has been managing to tackle 
contingencies around the world, even though they have grown at 
an alarming rate.
    Far from being foreseeable, our requirements have been more 
unexpected, our enemies more unpredictable, and our ability to 
handle multiple, simultaneous operations more uncertain.
    And yet, with such volatility, and instability around the 
world, America's Army is faced yet again with an enemy here at 
home, the return of sequestration, unprepared units, 
unmaintained equipment, untrained soldiers.
    Ladies and gentlemen, our Army, your Army, faces a dark and 
dangerous future unless the Congress acts now to end these ill-
conceived and inflexible budget cuts. Moreover--and I want to 
be very clear here--every installation, every component, and 
nearly every program will feel the brunt of these cuts.
    Under sequestration, by 2019, we will reduce our end 
strength to unconscionable levels, likely losing another six 
BCTs [brigade combat teams] and potentially a division 
headquarters, not to mention the impact to associated enablers, 
contracts, facilities, and civilian personnel.
    Let me share with you, if I may, some of the 
accomplishments of America's Army this past year. As Russian-
backed forces rolled into Ukraine, annexed Crimea, and 
threatened regional stability, our soldiers rapidly deployed to 
Eastern Europe in a demonstration of U.S. commitment and 
resolve. From Latvia and Lithuania to Poland and Estonia, 
soldiers from the 173rd Airborne and the 1st Cavalry showed the 
world that America would stand with our NATO [North Atlantic 
Treaty Organization] allies and respond to unbridled 
aggression.
    In West Africa, as thousands suffered from the scourge of 
Ebola, your Army acted. Elements of several units, led by the 
101st Airborne, provided command and control, equipment, and 
expertise to support efforts to stop this deadly and 
destabilizing disease.
    In response to rapid gains by ISIL [Islamic State of Iraq 
and the Levant], your soldiers quickly returned to Iraq to 
advise and assist security forces in turning the tide on this 
barbaric group of radical terrorists. In the Pacific, thousands 
of soldiers and civilians supported operations to strengthen 
our partnerships and increase our substantial presence.
    Today, the headquarters of nine Active Army and two Guard 
divisions are committed to combatant commands [COCOMs] and some 
143,000 soldiers are deployed, forward-stationed or committed, 
including over 19,000 mobilized reservists.
    Moreover, we have done all of this while continuing to 
transform our formations to make them leaner, more agile, and 
far more lethal.
    As all of you know so well, such extraordinary success 
comes at a price. For in the end, the young lieutenant leading 
his or her platoon, the sergeants training and mentoring their 
soldiers, the invaluable civilian workforce laboring countless 
hours to support them, and the young family waiting patiently 
at home are all human.
    The stress of war, multiple deployments, and unpredictable 
requirements doesn't change in the face of indiscriminate 
funding cuts. Through it all, we have and will remain committed 
to supporting the needs of our warriors, from programs to 
increase resilience and improve behavioral health to the 
prevention of sexual assault and the protection of victims from 
retaliation, we will keep faith with our soldiers.
    But rest assured, the return of sequestration will directly 
impact critical installations and family programs, Army-wide. 
Simply put, we need the President's budget. Our $126.5 billion 
request is, as you know, some $6.0 billion over the potential 
sequester level and is specifically designed to preserve our 
modest gains in readiness over the last year and take care of 
our soldiers.
    Moreover, this request seeks vital reform to compensation 
and force structure that will ensure the funding needed to 
support near-term readiness and help place the Army on a 
predictable path to balance. From modest changes to pay and 
allowances to our Aviation Restructuring Initiative, our 
reforms are both necessary and prudent to sustain the readiness 
of our forces and move the Army toward eventual balance.
    I cannot emphasize enough how critical these funds and 
reforms are to ensuring that your Army has sufficiently trained 
and ready soldiers to protect our Nation. This is an historic 
moment. We need to stop talking and start acting. We need 
wisdom, not words; we need results, not rhetoric. And, as I 
said to this very committee last year, we need predictability, 
not politics.
    As we face extreme instability around the world, we must 
have certainty here at home. I know you agree in what I am 
about to say: Your soldiers deserve no less. Their families 
deserve no less. We must have an end to sequestration this 
year, and we must have this budget.
    So thank you for all of the amazing support that I know 
personally each and every one of you provide to our men and 
women in uniform, their families, our civilians. Thank you for 
the work that this great committee has done time and time again 
on behalf of the nearly 1.3 million men and women of America's 
Army, Active, Guard, Reserve, and civilian.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The joint prepared statement of Secretary McHugh and 
General Odierno can be found in the Appendix on page 68.]
    The Chairman. Thank you, sir.
    My understanding is that the opening statements are just 
going to be provided by the service secretaries.
    So, Secretary Mabus.

   STATEMENT OF HON. RAY MAYBUS, SECRETARY OF THE NAVY; ADM 
 MICHELLE HOWARD, USN, VICE CHIEF OF NAVAL OPERATIONS; AND GEN 
     JOSEPH F. DUNFORD, USMC, COMMANDANT, U.S. MARINE CORPS

    Secretary Mabus. Thank you, Mr. Chairman, Ranking Member 
Sanchez, members of the committee, thank you so much for this 
opportunity to discuss the Department of the Navy.
    With the Chief of Naval Operations, Jon Greenert, and the 
Commandant of the Marine Corps, Joe Dunford, I have the 
privilege of representing the sailors and marines who serve our 
Nation, the civilians who support them, and their families.
    Admiral Greenert cannot be here due to a death in his 
family. But I am joined by the very able vice chief, as you 
pointed out, Mr. Chairman, Admiral Michelle Howard.
    Uniquely, the Navy and Marine Corps provide presence around 
the globe, around the clock, the Nation's first line of 
defense. Presence means we respond faster, we remain on station 
longer, we carry everything we need with us, and we do whatever 
missions are assigned by our Nation's leaders without needing 
anyone else's permission.
    We have always known America's success depends on an 
exceptional Navy and Marine Corps. Article I of our 
Constitution, which you quoted, Mr. Chairman, and is enshrined 
in this committee room, authorizes Congress to raise an army 
when needed but directs it to provide and maintain a navy.
    From the first six frigates to our growing fleet of today, 
from Tripoli to Afghanistan, sailors and marines have proven 
the Founders' wisdom. American leaders across the political 
spectrum have understood the vital significance of seapower. We 
deploy in peace just as much as in war. And our role in 
securing sea lanes has boosted our own and the world's economy.
    That is why our national defense strategy is clearly 
focused on the maritime domain and why investing in maritime 
assets provides the best value for peace, for prosperity, and 
for security.
    And I want to join Secretary McHugh in thanking this 
committee, because you, through your actions, have shown that 
it shares the view of a strong defense and a strong Navy and 
Marine Corps. And thank you for your support for our sailors, 
our marines, and the things they need to get their job done.
    The presence that our Navy and Marine Corps so uniquely 
deliver is built on four foundations: people, platforms, power, 
and partnerships. Our sailors and marines are well-known for 
their ability to exercise independent judgment and the 
flexibility to face changing circumstances. We remain committed 
to providing our sailors, our marines, and our civilians with 
the training and support they need to maintain that naval 
presence.
    But our people, as good as they are, cannot do their job 
without platforms. Providing presence, being where we are 
needed when we are needed, requires those platforms. On 
September 11th, 2001, our fleet stood at 316 ships. By 2008, it 
had declined to 278 ships. Our focus on two ground wars only 
partly explains that decline.
    In the 5 years before I became Secretary, our Navy 
contracted for only 27 ships, not enough to stop the slide in 
the size of the fleet. In my first 5 years, we have contracted 
for 70 ships and have reversed that decline.
    By the end of the decade, our fleet will once again be 
above 300 ships.
    For the past few years, the Department of the Navy has 
attempted to minimize the impact of an uncertain budgetary 
environment, marked by numerous continuing resolutions, 
imposition of sequester-level funding, and the threat of the 
return of sequestration.
    In this environment, cutting ships is the most damaging and 
least reversible course of action. I am committed to preserving 
our shipbuilding, following the Navy's watchword, ``Don't give 
up the ship.''
    Fueling the platforms of our Navy and Marine Corps is a 
vital operational concern that enables our global presence. 
That is why Navy has a long history of energy innovation. By 
employing alternative fuels and being more efficient in fuel 
usage, we are working to bring competition, lessen the 
incredible volatility in fuel prices, and decrease our 
adversaries' ability to use fuel as a weapon.
    Our ability to maintain presence and advance global 
security will also be augmented through partnerships. 
Cooperation makes us more effective.
    Over all, the fiscal year 2016 President's budget balances 
current readiness needed to execute the assigned missions of 
today while rebuilding our highly capable fleet.
    But it is the minimum that we must have to do that. Today's 
tough fiscal climate demands our most rigorous examination of 
every dollar that we spend. And we have and will continue to do 
just that.
    But we are at the point where we can no longer do more or 
even the same with less. With less, we will be forced to do 
less.
    When America has called, the Navy and Marine Corps have 
always answered. In order to ensure that we continue to provide 
the naval force our Nation's leaders and the American people 
expect.
    We look forward to answering your questions, and to working 
together with this committee and with Congress to maintain our 
great Navy and Marine Corps.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 98.]
    The Chairman. Thank you.
    And now to a former staff member of this committee. We will 
take credit for all sorts of you folks.
    [Laughter.]
    Secretary James.

   STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY OF THE AIR 
 FORCE, AND GEN MARK A. WELSH, USAF, CHIEF OF STAFF, U.S. AIR 
                             FORCE

    Secretary James. Thank you very much, Mr. Chairman, 
Congresswoman Sanchez. It is a pleasure to come before all of 
you today, to come home, in effect, where my roots began.
    Also an honor to sit here with my colleagues from sister 
services. And always a pleasure to be with my wingman, General 
Mark Welsh.
    Mr. Chairman, I am still the rookie among the service 
secretaries. I have now been in this seat for 15 months. And I 
would like to begin this morning by telling you all some of my 
key takeaways of the top things that I have learned in my 15 
months as being the Secretary of the Air Force, the privilege 
of my professional lifetime.
    The first thing I have learned, which was a shock to me 
when I first got in the seat, is that today's United States Air 
Force is the smallest Air Force that we have ever had since our 
inception as a separate service in the year 1947. We have 
literally been building down our Air Force for the better part 
of two decades. And today, we are the smallest we have even 
been in terms of people.
    Secondly, I have learned that our aircraft are the oldest 
that they have ever been, with an average age of 27 years, but, 
of course, average is average. And that means quite a few of 
the fleets are substantially older than that.
    Here is a shocking statistic, I think. More than half of 
our combat air forces are not sufficiently ready today for a 
high-end fight, meaning a fight where the enemy has the 
capacity to shoot back at you, to shoot you down, to interfere 
with you through integrated air defenses and the like. More 
than half of our forces are not sufficiently ready for such a 
fight.
    We all know budgets are extremely tight. And, of course, I 
think we also realize that demand for what we do in the United 
States Air Force is at an all-time high all around the world. 
And this is certainly the most dangerous and complex and 
constantly changing world scene that I can ever remember, 
certainly in the 34 years that I have been an observer on the 
scene in defense.
    Now, your Air Force is working very, very hard to meet the 
combatant commanders' most urgent requirements and needs. But I 
have to join with my colleagues and say that a budgetary 
trajectory that results in sequestration is not going to allow 
us to sustain this pace.
    Let me now do my plain speaking. I believe sequestration is 
going to place American lives at greater risk, both at home and 
abroad, if we are forced to live with it. In fact, if 
sequestration remains the law of the land, we will not, in the 
United States Air Force, simultaneously be able to defeat an 
adversary in one part of the world, deny a second adversary the 
objectives they seek in a second part of the world, as well as 
defend the homeland. That, of course, is our national strategy. 
And I am telling you, we won't be able to do it under 
sequestration.
    Mr. Chairman, you recently said at AEI [American Enterprise 
Institute] the problem with sequestration is whether we have 
the capability to do what the Nation needs and the times 
demand. It is also very much about the increased danger that 
comes to our people. And I couldn't agree with you more.
    I think you are absolutely correct. And under 
sequestration, the Air Force cannot guarantee that we will meet 
the Nation's demands. And our people will definitely be in more 
danger. And I just think this is not acceptable. Something has 
got to give.
    And we thank you and we thank other members of this 
committee, because we know you are pushing hard to try to get 
sequestration lifted permanently. Please, please keep it up.
    Now, as you know, rather than living with this level of a 
budget, we are asking for a budget figure in fiscal year 2016 
which is substantially closer to what we need in the United 
States Air Force. For us, the additional monies equate to about 
$10 billion more in fiscal year 2016 than what sequestration-
level funding would provide to the Air Force. And this $10 
billion more would provide both the forces that we need to do 
the most pressing combatant commander requirements, and it 
would also allow us to invest better, more appropriately in our 
top priorities. Which are, number one, taking care of people. 
And there is an awful lot in this budget related to people, but 
I want to call your attention to the number one priority that 
General Welsh and I have pinpointed. And that is, we have got 
to stop this downsizing.
    As I mentioned, we are the smallest that we have ever been. 
In my opinion, I think we have even gone too far. And that is 
why this budget proposes a modest uptick for both our Active 
Duty, our National Guard, and our Reserve elements. We want to 
go up very slightly. And if we are allowed to do so, this will 
alleviate some operational strain that we are feeling in a 
number of areas, to include our nuclear enterprise, the world 
of cyber, and the world of maintenance, particularly across the 
combat air forces.
    Turning to second priority, which is getting the right 
balance between our readiness of today and building a modern 
Air Force of tomorrow.
    Both General Welsh and I consulted very closely as we built 
our budget, not only with the folks at this table, but also 
with our combatant commanders. And as a result, our budget is 
going to ramp up support to the most urgent needs that the 
combatant commanders identified to us, which basically equate 
to one thing: ISR [intelligence, surveillance, and 
reconnaissance]. ISR, ISR, ISR--that is what they tell us. They 
need more Air Force as the top priority.
    So, as a result, we have got 60 steady-state ISR patrols in 
the budget, as well as we are extending the life of a U-2 and 
the AWACS [Airborne Warning and Control System] program in this 
budget.
    We also need to support space programs, strengthen the 
nuclear enterprise, fund flying hours to the maximum executable 
level, invest in weapons system sustainment, and ensure combat 
exercises like Red and Green Flag programs remain strong. All 
of that is the readiness of today, but we also have to 
modernize for tomorrow. And so, when it comes to modernization, 
again, we have got some decent funding that I want to share 
with you.
    The nuclear enterprise is our number one mission, and so we 
have redirected substantial resources towards that element. 
Moreover, we have our top three programs which will remain on 
track under this budget. The KC-46 tanker, the F-35, and the 
Long-Range Strike Bomber. And we will also be making important 
investments in modernization for space, our science and 
technology budget, as well as other areas.
    And our third priority, Mr. Chairman--our number three goal 
is what we call ``make every dollar count.'' And this is 
because we precisely understand--we get it that the taxpayer 
dollar is precious, and we can't afford to waste any of it. And 
so, we are constantly looking for efficiencies and ways to do 
things differently, to free up resources, and to give back to 
our people some of their precious time.
    So, for example, we took an aggressive 20 percent reduction 
in our headquarters funding, which includes civilians and 
contractors and redirecting military personnel. We didn't have 
to do it in 1 year, but we did, because we thought it was the 
right thing to do. We would be able to free up those resources 
more quickly to plow back into important things that we need to 
do. Not only that, but over the last 3 years, we have reduced 
our service contract workforce by $7 billion.
    So, we have reduced contractors substantially. And we are 
going to continue to scrub this as time goes by, both on the 
contractor workforce, the civilian workforce over the next 
several years.
    We also are striving to institute service-wide efficiencies 
in our acquisition systems. We call it ``bend the cost curve,'' 
trying to keep weapons on track, building affordability into 
new systems right from the beginning. We are driving toward 
auditability of our books and we are looking to maximize energy 
savings. So all of this, I would submit, falls very much in 
line with your acquisition reform thrust, Mr. Chairman. And I 
want you to know we are on it. We are on this line as well.
    Now there are plenty of tough choices in this budget as 
well. I don't want to pick an overly--paint an overly rosy 
picture. We had hard choices to make because we couldn't do 
everything. So for example, we are proposing, once again, to 
retire the A-10 fleet gradually over time and also to slow the 
growth in military compensation.
    And we know these are not popular decisions, popular 
choices, but would ask you to keep in mind that if you don't 
like these choices, hold on to your hats, because under 
sequestration, it gets uglier and uglier and uglier.
    So for example, under sequestration, our Air Force would 
not only have to retire the A-10, as well as slow the growth in 
military compensation, but in addition, we would be facing the 
following actions. Divest the U-2, and the Global Hawk Block 
40, and the KC-10 fleets.
    We would have to reduce our combat air patrols, our 
Reapers, and our Predators, up to 10 orbits. We would defer 14 
F-35s, which, of course, would drive up unit costs.
    We would cancel the adaptive engine program and then we 
would have to, in some sort of not across-the-board equal 
percentage way, but in some fashion, we would also have to 
reduce our investments in space and cyber and nuclear and 
science and technology and readiness and people.
    In other words, I think, everything is threatened, Mr. 
Chairman, under sequestration. And most of all, I fear that 
American lives would be at risk. So I ask you again, please 
continue your leadership to get sequestration lifted 
permanently. Please keep on pushing.
    Thank you very much. And we all look forward to your 
questions.
    [The joint prepared statement of Secretary James and 
General Welsh can be found in the Appendix on page 141.]
    The Chairman. Thank you. I am going to ask the staff to put 
me on the clock, because I have, really, one question directed 
to each of the service chiefs. At our retreat, General Dempsey 
said, and he said we could quote him, that ``the budget request 
was the lower ragged edge of what it takes to defend the 
country.''
    So if you were talking to my constituents or some of our 
colleagues who don't deal in this area every day and had 1 
minute to describe what the consequences to the country would 
be for not approving the amount that the President or the 
administration has asked for, for Department of Defense [DOD] 
or for your service, how would you do that? Again, in 1 minute, 
in plain language. General.
    General Odierno. Chairman, I would say unpreparedness, 
inability to react to the unknown, contingencies, and stress on 
the force would be increased significantly.
    The Chairman. Admiral.
    Admiral Howard. Thank you. Thank you, Mr. Secretary. I am 
more of a rookie than Secretary James. Strategic deterrence 
remains our number-one priority, so we would focus on that, but 
then the impact on the rest of the conventional force, our 
ships and submarines, would be tremendous. You are talking 
about impact on readiness, our ability to train people and our 
ability to forward deploy and be where we need to be. All of 
that would shrink. Our ability to respond to the Nation's needs 
would be greatly diminished. It is--it would be devastating.
    The Chairman. General.
    General Dunford. Chairman, I think I would use an anecdote. 
What you would expect out of the Marine Corps is that we are 
forward deployed, forward engaged, and ready to respond to 
crises in a moment's notice. And I think there are two models 
for that.
    There is the model that we have seen over the past year 
where marines have immediately responded to evacuation 
operations in South Sudan, in Libya, in Yemen. And in those 
cases, we haven't heard much. It was in the news for about a 
day and then it moved on.
    There was a case a few years ago in Benghazi when marines 
weren't forward postured, forward engaged, and ready to respond 
on a moment's notice and we heard about that particular 
incident now for years. I think that is the difference between 
funding the budget in support of marines and having us be 
forward deployed, forward engaged, and not be engaged. There 
are two models of crisis response and I would outline those for 
your constituents, Chairman, thank you.
    The Chairman. General.
    General Welsh. Chairman, I would agree with what the 
Commandant said and I would tell you that I believe the 
fundamental issue is going to be that the American people 
cannot expect their military to do what we have been asked to 
do in the past, if we stay at these funding levels.
    The Chairman. Thank you. As you all were talking, I was 
thinking, too, some comments that were made by one of our 
committee members earlier today that basically it means that 
lives are at greater risk and more lives are lost because that 
is what the bottom line to what we ask you and those who serve 
under you to do.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I actually have two 
questions. The first is for General Odierno and for the 
Admiral--Admiral Howard. Please feel free to answer the best 
you can. So I have a letter here both from General Odierno and 
Admiral Greenert sent to Secretary Hagel November of last year, 
indicating your concerns with essentially how much we are 
investing in missile defense and the growing challenges both 
that you see in terms of our capacity to continue to invest in 
missile defense at the current rate, considering the fiscal 
environment that we are in. The letter states ``our present 
acquisition-based strategy is unsustainable in the current 
fiscal environment and favors forward deployment of assets in 
lieu of deterrence-based options to meet contingency demands.
    ``Now is the opportunity to develop a long-term approach 
that addresses homeland missile defense and regional missile 
defense priorities, a holistic approach that is more 
sustainable and cost effective, incorporating ``left of 
launch'' and other non-kinetic means of defense.'' That is from 
your letter, General Odierno.
    Can you expand on this letter, because I believe it is very 
important as we look at how we can get the best value for the 
taxpayers' money. I have always argued that missile defense is 
only one approach to addressing the various threats that face 
us. And as indicated in your letter, could you expand on that, 
please?
    General Odierno. So the basis of the letter was that we 
cannot sustain the rate of deployments of the current missile 
defense capability that we have. We simply are overstressing 
the force. We don't have enough. We are not meeting all the 
requirements. So in our mind, we have to come up with a new 
concept that allows us to use an integrated air and missile 
defense capability that is shared among the services that 
allows us to deal with this growing threat, because the threat 
is growing.
    So what we want is a study that enables us to come up with 
new techniques, new procedures, new capabilities that are able 
for us to provide proper defense for this Nation, using a 
variety of capabilities to include current missile defense 
assets, but other capabilities. You can--cyber and other things 
that have to be integrated into this that enables us to deal 
with these problems. We are on a path that we can't sustain. 
And the threat, missile defense threat, is growing, so we have 
got to come up with a most cost-effective means of dealing with 
this issue and I think that was the basis of the letter.
    Ms. Sanchez. So you would like a study? General, can we 
wait to put that in the NDAA [National Defense Authorization 
Act] and go through the whole funding process for a year or 
would you prefer that we try to get a study up on that as soon 
as possible?
    General Odierno. I think we need to do it as soon as 
possible, ma'am.
    Ms. Sanchez. Okay. My second question is in regards to 
where each service is in fully integrating women into the 
military. You know this has been a big deal from my standpoint 
for a long time.
    There is about 15 percent of the military comprised of 
women. Over 200,000 women have dedicated their lives to serve 
our country, and have died while serving on the front lines. 
So, it is women's history month, and equality of women extends 
to the military. By September of this year, all gender-neutral 
occupation standards are to be set. And by next year, all 
positions should be open unless an exception to the policy is 
requested.
    Are all the services on track to meeting those deadlines? 
And if not, why? And from what I can see on the current 
schedule, many occupations and units won't be open by January 
1st, 2016, deadline. So, what is OSD [Office of the Secretary 
of Defense] doing to ensure service, and so, compliance with 
the original directive? And why are women in open specialties 
like communications, intelligence, and logistics still barred 
from serving in Marine Corps infantry battalions in any 
capacity, even though, for example, a male public affairs 
officer assigned to an infantry unit requires no infantry 
training beyond what all officers receive at the basic school, 
and women in these open specialties are not allowed in any 
capacity in infantry battalions?
    So, can you please address where we are, where we are 
going? Are we going to meet what we need to do?
    General Odierno. Ma'am, if I could, we are on track. We 
have--to make our recommendation to the Secretary. This year, 
we are on the--we are continuing to finish up the testing for 
all our MOSs [military occupational specialties]. Currently, we 
have infantry engineer, field artillery, and armor that are 
currently not yet open. We are running tests with women in 
these positions now. We have actually sent a note forward to 
Congress recommending the opening of combat engineers already. 
So, we have finished that.
    We expect artillery to be done within the next month or so. 
And we expect armor and infantry--we will have--we will be 
prepared to provide a recommendation September, October 
timeframe. And that is the timeline we are on. We are 
comfortable with where we are in assessing. And I think you are 
aware that we are also doing a test right now in Ranger school, 
where, for the first time, females will participate in Ranger 
school.
    The Chairman. If you all could just have--I--in fairness to 
her, I did not alert Ms. Sanchez that I was going to put us 
under the clock, too. But if the other services just have a 
really brief answer. And then I am sure we can expand.
    Secretary Mabus. The Navy and the Marine Corps are 
absolutely on track to meet the deadlines. In the Navy, we have 
opened every single occupation and billet to women, including 
submarines, riverine. And the only one that remains closed 
today are the trigger pullers for the SEALs [Sea, Air, Land 
teams]. All the support things like intel and communications 
for the SEALs are open.
    I will let General Dunford give you an update on exactly 
where the Marines are. But the one thing I would ask this 
committee--we don't have enough women in our service. And one 
of the reasons that we are having problems is, we do not have 
enough flexibility in how we manage our force. And more women 
leave than men. And we have some legislative proposals in to 
address that.
    General Dunford. Congresswoman, thank you. And the 
Secretary outlines where we are. But I would just go back to 
your example of public affairs officer. In fact, due to the 
Secretary of Defense lifting the co-location policy, there is 
no difference today in how we would assign a male and a female 
public affairs officer, to include in support of an infantry 
unit.
    So, today, there are no restrictions. A commander can, due 
to lifting of the co-location policy, assign women anywhere in 
the battlefield where he or she believes it is necessary. And 
that has been in effect since Secretary Panetta signed his 
letter.
    Secretary James. And the vast majority of our positions in 
the Air Force are open. We have seven closed AFSCs [Air Force 
specialty codes] at present. We are on track to meet the 
deadlines. And I personally have received kind of an interim 
update about how it is all going. And I feel pretty good about 
it.
    As you pointed out, Ms. Sanchez, we do need to work closely 
with the Special Operations Command. Our seven AFSCs pretty 
much relate to the world of special operations. And so, we are 
trying to work through that coordination now.
    Ms. Sanchez. Mr. Chairman, thank you for your indulgence. I 
think it is an incredibly important issue. And I hope that our 
personnel committee, in particular, will continue to be on top 
of this. I just think it is so important.
    The Chairman. They are on top of everything. They are good.
    [Laughter.]
    Ms. Sanchez [continuing]. They have done good jobs----
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. General Dunford, if I 
could go back to the chairman's line of questioning about the 
impact of these budgets--you stated about as articulately as I 
have heard it stated a few weeks ago. As I understood you to 
state, you said this. That even if we were to get the full 
amount in the President's budget, that the best that could do 
for us would be to reset us to where the military was a decade 
ago. That it still would not enable us to begin to reconstitute 
to where we need to be to fight tomorrow's wars. And that if we 
did not get the amount in the President's budget, we couldn't 
even reset to where we were a decade ago--fighting wars a 
decade ago.
    Is that an accurate statement?
    General Dunford. Congressman, it is in many functional 
areas. And very briefly, why I say that is because we have 
learned that today, we must operate in a greatly distributed 
manner. That is both at sea and at shore. And that has 
implications for command and control systems. It has 
implications for fliers. It has implications for our 
organizational construct and our equipment strategy as a whole.
    And currently, even at the President's budget, we are not 
making the kind of changes that facilitate and optimize 
distributed operations in a manner that I think is necessary 
for the current fight, as well as the future fight.
    And I would just--you know, if you just look at the 
examples of our special-purpose Marine air-ground task forces 
today, the one that is in the Central Command is spread across 
six different countries. That is an organization now spread 
across six different countries. And when I was a lieutenant, I 
was trained in a unit of that size. We would defend on about a 
3,000-meter frontage and attack on about a 600-meter frontage.
    So, you can get a sense of how time and space has changed 
over time, and the implications, again, for both organization 
and equipping. And I don't think we are making the kinds of 
changes to facilitate that as quickly as necessary.
    And so, fundamentally, we really are building capabilities 
that are more applicable to yesterday than tomorrow right now 
as a result of the budgetary constraints.
    Mr. Forbes. Admiral Howard, I won't ask you to comment on 
what the CNO would say, but I can say for the record that I 
heard him a few days after General Dunford made that statement. 
He quoted that statement, and said that he did agree with it, 
as well.
    General Odierno, I asked you the same question. And I think 
your comment was that you agreed, as well. But I would just 
like for your thoughts on that.
    General Odierno. I agree. I would say for the Army, 
actually, we don't even get reset for 5 more years. And so, it 
takes us to 2020 even to reset, as we are still trying to move 
to the future. And so, for us, the next 4 or 5 years, we have 
some significant issues in terms of readiness.
    Mr. Forbes. Yes. General Welsh, I haven't had an 
opportunity to ask you that question, but what would you feel 
about the statement that General Dunford had made?
    General Welsh. Congressman, the problem we have is if we 
don't invest in readiness today, we risk losing the fight 
today. If we don't invest in readiness and capability for the 
future, we risk losing the fight 10 to 20 years from now. That 
is the balance we are trying to walk.
    It will take the Air Force 8 to 10 years to recover full-
spectrum readiness. We haven't been investing in the 
infrastructure over the last 10 to 15 years. It gives us 
mission capability, training ranges, space launch capabilities, 
simulation infrastructure, black and white world test 
infrastructure, those kind of things. The entire nuclear 
infrastructure issue that you are familiar with, those things 
must be persistent, consistent investment for us or we will 
fail down the road. That is what we are lacking right now.
    Mr. Forbes. Okay. And Secretary James, you gave a very good 
statement of where the Air Force is and your comments. As you 
know, the budget that the President sent over, however, even if 
we pass that budget, would not become law unless we also have 
legislation doing away with sequestration.
    Are you aware of any proposal the President has sent over 
here that would do away with sequestration for national 
defense? And if not, if we were to pass such a piece of 
legislation that would do away with sequestration for national 
defense, do you have any indication that the White House would 
sign that legislation?
    Secretary James. Mr. Chairman, it has at least been my 
impression, but I want to go back and double-check what I am 
about to say here, is that the overall plan that the President 
set forth would involve the lifting of sequestration not only 
for defense, but for the whole of government. So my belief was 
that the President's plan did include the lifting of 
sequestration for all of us----
    Mr. Forbes. And what I ask----
    Secretary James [continuing]. But please allow me to check 
that.
    Mr. Forbes [continuing]. I would ask for all three of our 
secretaries, if you could give us any indication that the 
President would be willing to sign a piece of legislation that 
would do away with sequestration at least related to national 
defense because, as I take your statement that we can't defend 
against an adversary in one part of the world and hold another 
one at bay and defend the homeland, unless we do that. I would 
hope the President wouldn't hold that hostage to money that he 
might want for the EPA [Environmental Protection Agency], IRS 
[Internal Revenue Service], or something else.
    So with that, Mr. Chairman, I yield back.
    The Chairman. Appreciate it.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all very 
much for being here, of course, for your service. Secretary 
Mabus, you mentioned just briefly--and you don't have to 
respond right now--that there are some authorities that you 
need in order to do a better job hiring women into the Navy, 
particularly? And if you could--I would look forward to seeing 
that, so that we can work on that in the upcoming NDAA.
    I wanted to ask you, Secretary Mabus, and certainly to 
General Dunford, we know that sequestration will decrease 
readiness and place our personnel at risk. I wonder if you 
could speak more directly, though, to the fact that for the 
Marines, 60 percent are first enlistments.
    And as we move forward with the environment that we have, 
the OPTEMPO [operations tempo] environment, the changes to 
future benefits, perhaps, what are we doing to ensure the 
quality and the high standards of the Marine Corps? Do you see 
that that could be affected by the way that we move forward 
today?
    General Dunford. Congresswoman, thank you. Today, 60 
percent, as you pointed out, of our forces, is first-termers. 
In terms of quality, we are absolutely recruiting and retaining 
high-quality marines today and I am confident of that.
    However, something that we have spoken about is that I also 
believe that the demographics in the Marine Corps need to 
change to account for the increasingly complex security 
environment. So today we may have a 60 percent first-term 
force. But I don't believe that it should be that case in the 
future.
    And we are in the process now of actually increasing the 
numbers of sergeants, staff sergeants, gunnery sergeants--those 
are the middle-grade enlisted ranks--and reducing the numbers 
of lance corporals, PFCs [privates first class], and privates, 
those are the bottom three enlisted grades. And that is in 
recognition, again, of technological developments with the F-35 
cyber capabilities, as well as our infantry squad leaders who 
today have the responsibility, frankly, that were probably more 
in line with what a lieutenant was doing 15 or 20 years ago is 
now on the shoulders of a sergeant and I think that also 
requires some changes again in the demographics and the 
construct of the Marine Corps.
    Mrs. Davis. Yes. So, the skill sets are all obviously 
important, in terms of how you do that. I think part of my 
question, and it has been raised--and the last few questions 
is, you know, it is maybe not in your area of responsibility to 
look at non-defense impacts of sequestration. But when we talk 
about the young people that we are recruiting today, certainly, 
our domestic budget has an impact on that as well. And I know 
that, in the past, Admiral Mullen specifically comes to mind, 
but others have really spoken to the needs of whether it is in 
education, whether it is in fitness, whether it is in health, 
all those areas. So do you feel comfortable saying that, in 
fact, it does matter what we do in terms of sequestration and 
the non-defense budget, as well? Does that impact on our 
military? Does it impact on the young people who were going to 
be recruited?
    Secretary Mabus. Congresswoman, I will give you a very 
specific example of how it has a tremendous impact on us. 
Seventy-five percent of young Americans 18-24 years old do not 
qualify to join the American military. It is either for--they 
lack the educational requirements that we have, they have a 
health problem, usually obesity, or they have a criminal 
record. So if you want to help us continue to recruit the very 
best that, that we believe we are the recruiting today, but we 
are drawing from a very small pool of Americans. You have to 
pay attention to education, you have to pay attention to 
health. You have to pay attention to the domestic side.
    Mrs. Davis. Thank you. Anybody else want to comment 
briefly?
    Secretary McHugh. I would be happy to, Mrs. Davis.
    Obviously, the Army, all the services are laboring under 
the same one-in-four constraint that Secretary Mabus mentioned.
    I can tell you both in talking to new recruits, but also 
those who have served some time in the United States Army that 
they are very mindful of the discussion on sequestration.
    They are also very aware of the cuts that we in the Army 
have already had to take, of the loss of training opportunities 
that they have had to endure in other programs. And while they 
want to stick with us, it becomes more and more challenging for 
them to do that. They want to secure a future for their 
families and they are very worried about how this may turn out.
    As for recruiting, similarly, recruits and their 
influencers, particularly parents, are mindful of these 
discussions and are questioning whether or not they want to 
send their child, number one, into a military service, where 
there is obviously great danger involved. But coupled with the 
fact of a totally uncertain fiscal future. So it is a very 
large challenge we are all dealing with right at the moment.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Chairman Miller.
    Mr. Miller. Thank you, Mr. Chairman. Thank you all for 
being here today. I want to go a little bit further out than 
the budget that we are discussing today, but talk a little bit 
about the audit. One of the things that absolutely shocked me 
was that when we started talking about auditing DOD a few years 
ago, we were told it would take years to get the agency into a 
posture that we, in fact, could audit them. So we have got a 
couple deadlines that are approaching. I think, 2017 is the 
first one to get ready, and then 2019, when the results have to 
be given to Congress.
    But I want to talk a little about risk allocation, or hear 
from you, that may come from the DOD audit.
    Two quick questions.
    One is, I understand that the leadership is supporting the 
audit, but I am a little concerned about the SES [Senior 
Executive Service] levels and commitment to making this happen. 
So I want to know your feeling on the commitment from the 
senior level. And then any tweaks that you may have done since 
the November report that Congress received on the financial 
improvement and audit readiness plan.
    Secretary McHugh. I can start, Mr. Miller. As to the larger 
question of the Army's posture in achieving the milestones that 
you described, I feel we are on track. We have gone through a 
series of both mock audits and outside examinations that have 
proven very, very positive unqualified findings in a number of 
areas. But equally, if not more important, they have shown us 
where we have weaknesses and need to do better.
    As to your specific question on the SES's, I think we have 
buy-in. What we are challenged with is helping people operate 
under the new paradigm and getting away from business as usual. 
So, what we have done in response to that, where we witnessed 
it through our mock audits and our other examinations, is to go 
back in and to reemphasize training. And to the extent we have 
been able to measure that to this point, we think we are on the 
right path.
    But this is an incredibly complex endeavor, as you noted, 
particularly for the United States Army, but we have made great 
progress and we feel we are moving forward as you would want us 
to.
    General Odierno. If I could just add one comment to that it 
would be, the Vice Chief of Staff of the Army and the Under 
Secretary of the Army quarterly are doing VTCs [video 
teleconferences] with all subordinate MACOMs [major commands] 
of the Army specifically on this issue so they all understand 
the importance they play in moving forward with this. And that 
is starting--that is really helping us to move this along.
    Secretary Mabus. As a former State auditor, I don't take 
anything more seriously. As you know, the Marine Corps got a 
clean audit on their statement of budgetary accounts for fiscal 
year 2012. They are almost finished with the fiscal year 2013 
audit. Navy has its first statement of budgetary account audit 
under contract now, and moving forward.
    I believe in particular SES is understanding the importance 
of it and of moving forward. The concern that I have, very 
frankly, is that there is at least one area that we don't 
control that could have an impact on whether we get the audit. 
The Defense Finance and Accounting Service [DFAS] that writes 
our checks, that we pay, the Navy and the Marine Corps, $300 
million to last year to write those checks, 9 out of their 10 
internal controls have been found to be inadequate.
    The numbers that we receive from them that we are dependent 
on cannot be validated. And so the Navy and Marine Corps are 
absolutely on track to do it. Again, I am concerned about that 
that is outside of our control.
    Secretary James. And Congressman Miller, I first of all 
want to agree with my colleague, Ray Mabus, on that last point 
about DFAS. But on behalf of the Air Force, I would say again 
we are fully committed to the audit. In fact, I mentioned that 
in my opening statement. I come out of the business world and 
so I personally am devoting time to this as well.
    I do monthly meetings just to keep my finger on the pulse 
of how we are doing. We are underway with the schedule of 
budgetary activity, which of course is the precursor to doing 
the audit. And we have a new accounting environment, which we 
call DEAMS [Defense Enterprise Accounting and Management 
System] in the Air Force, which a year or two ago was quite 
messy and not going well. But it is doing much better now, and 
that is going to help us get there from here.
    So on balance, I am cautiously optimistic, but with several 
of these caveats that you heard, that we are on track to meet 
the goals that are laid out in the law now, of September of 
2017 specifically, to reach the full financial statement audit.
    The Chairman. I thank the gentlemen.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for being here today, 
for your testimony, and of course, your enduring service to our 
Nation.
    Secretary Mabus, if I could start with you. First of all, I 
want to thank you. Recently, you were in Rhode Island for the 
keel-laying ceremony for the USS Colorado, along with your 
daughter, the ship sponsor, and your family. You honored our 
State, as well as the State of Colorado and the workforce, the 
men and women of Quonset Point Electric Boat, for your presence 
there, and I thank you for that.
    On the Virginia-class program, along with the Virginia 
Payload Module and then the Ohio replacement, as we face 
significant budget challenges, Secretary, can you tell us how 
is your ability to keep those programs on track at the 
President's budget level, or if we have to drop back to BCA 
[Budget Control Act] levels or even worse, how is the impact if 
sequestration goes into effect to keep those programs on track, 
especially given the challenges that we face as our submarine 
force is declining if we don't keep those programs on track at 
just at the same time our adversaries, in particular China, are 
increasing the size of their submarine fleet?
    Secretary Mabus. Thank you, Congressman.
    The Virginia-class program is a model program. We, as you 
know, signed a 10-year--a 10-boat, multiyear where we got 10 
submarines for the price of 9 because of this committee's 
support in allowing us to do the multiyear.
    To break a multiyear because of lack of funds, that is 
possible with sequestration, means you would pay more money and 
get fewer ships, which is just a bizarre outcome.
    On the Virginia Payload Module, the first one of those is 
scheduled to go into one boat in 2019. We are looking to see if 
we can move that up because of the need we have for that strike 
capability that will go away when our SSGNs, our guided missile 
submarines, retire in the mid-2020s.
    And finally, the Ohio-class replacement program, the first 
boat will have to begin in 2021. This is the most survivable 
leg of the--of our deterrence triad. We cannot extend the life 
of the Ohio class any longer. And this is a program that if 
Navy shipbuilding is asked to bear the entire burden of it, 
would take more than half of our shipbuilding budget for 12 
years, which would have serious implications to our submarine 
fleet and all the rest of our fleet, and to the entire Navy.
    So, I appreciate Congress setting up the fund for the Ohio-
class replacement, and I think that this debate has to continue 
as to how we fund this because it is a national program and 
needs national support for it.
    And there is history behind it in the first time we did 
deterrent submarines, ``41 for Freedom'' in the late 1950s, 
early 1960s, and in the Ohio class, both times significant 
amounts were added to Navy shipbuilding to allow that deterrent 
to be met.
    Mr. Langevin. Thank you.
    And Secretary, I would like to point out a sentence in your 
statement that resonated with me. And that was the mention of 
the Navy and Marine Corps being those services that perform 
most often far from home, in addition to the Army. What are the 
current dwell ratios? And would a reduced budget negatively 
affect the current ratios in a way that might threaten the 
morale and efficiency of our Army, Navy, and Marine Corps?
    Secretary Mabus. Our Marine Corps right now is a little bit 
less than 1:2, dwell to deployment. We today have more than 
30,000 marines on deployment around the world. And 1:2 is, to 
use the chairman's term, the ``ragged edge'' of how much you 
can ask someone to deploy without their effectiveness being--
suffering.
    On the Navy side, our deployments are getting longer. They 
are getting less predictable. And we are trying to get into a 
thing called the Optimized Fleet Response Plan, which will make 
deployments more predictable, which will make maintenance more 
predictable, which will make training more predictable. All 
that would be seriously jeopardized and scuttled by 
sequestration.
    Mr. Langevin. Thank you.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank each of you for being here today. I 
know first-hand your commitment, how military families, service 
members, veterans truly appreciate your service.
    In fact, our family's joint service cover each of you. 
Thanks to my wife, I give her all the credit, we have had three 
sons in the Army National Guard; have a son in the Navy. We 
have a nephew in the Air Force. My late brother-in-law and 
father-in-law were proud marines. So first-hand, I know of your 
commitment and how military families are putting so much trust 
in you.
    I also want to point out the context to where we are today. 
Somebody that we all respect, I believe it is universal, 
bipartisan, Dr. Henry Kissinger, testified recently, ``the 
United States has not faced a more diverse and complex array of 
crises since the end of the Second World War.''
    And Secretary James, I appreciate in particular you pointed 
out how the reduction of our air capability is putting the 
American people at risk and we want to work with you.
    Additionally, though, we need to recognize according to Bob 
Woodward in his book, ``The Price of Politics,'' that it was 
the President who came up with defense sequestration. I am very 
grateful that House Republicans have voted twice to replace 
defense sequestration. Sadly, neither one of our initiatives 
were taken up by the former Senate, but hope springs eternal 
that this can be addressed.
    In regard to a question, General Odierno, I will always be 
very grateful visiting you in Baghdad. I have had two sons 
serve in Iraq, so I know again of your insight. And I would 
like your insight into what milestones we will be looking at in 
Afghanistan before there is a further drawdown.
    General Odierno. Congressman, I would say that the 
important thing in Afghanistan is twofold. One is we have to 
make sure that the Afghan security forces continue to improve, 
they continue to be able to do the institutional things that 
are necessary for a long-term sustainment of their military. 
And I think that is critical.
    And so in order for that to happen, I believe we have to 
stay the course with them and we have to continue to help them 
as they continue to fight the challenges that they face. And 
they are doing an incredible job doing that, but it is 
important we stay with them and that we have a conditions-based 
capability with a commander over there that allows him to make 
judgments in order to make sure we continue the support that is 
necessary for them to have sustained--sustainable outcomes that 
will last a long time.
    Mr. Wilson. And I share the concern of the President. One 
of my sons served also in Afghanistan. And that is that the 
stability of Afghanistan is very important for the stability of 
nuclear-equipped Pakistan. And so I appreciate the President 
recognizing that. And every step should be made for stability 
so that they are not safe havens to attack the United States.
    An issue that really has come before us, cyber threat to 
our country. And in particular, I am keenly interested, 
Secretary McHugh, in regard to Cyber Command. What is the 
latest on how we are going to be facing it? And if other 
branches would like to address, this is such a key issue to the 
American people.
    Secretary McHugh. It is. And as many far smarter than I 
have declared, it is clearly the critical challenge of the 
future, and a threat to not just the military, but to the 
homeland writ large. Like all of the services, we are working 
through Cyber Command as a joint commander to ensure that we 
are coordinated across all of the military departments in a way 
that provides the most robust and most effective cyber team.
    In the Army, in the Active Component, we are in the process 
of standing up 41 cyber protection teams; 24 of those are 
currently at initial operation capability. And by the end of 
2016, we expect all 41 to be up and operating. We are very 
mindful of the fact that, particularly in the Guard and 
Reserve, there is a wealth of experience. Many of these 
individuals have employment outside of their military jobs that 
have much to do with cyber systems.
    As such, the Guard is setting up 11 cyber protection teams. 
The Reserve Component will have 10. And as I said, we are 
working very hard to coordinate that writ large. We have 
instituted a series of benefits, of programs and bonuses to try 
to compete for these highly technical individuals. And through 
the Army Center of Excellence, Cyber Center of Excellence at 
Fort Gordon, which we have announced, I think we are making 
progress. But as I think any expert would readily admit, there 
are challenges that remain and a ways to go.
    Mr. Wilson. Thank you very much.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And thank you to all of our service secretaries and chiefs. 
I want to commend all of you for sharing with this committee 
the dangers of sequestration and the devastating impact it can 
have on our military readiness. And I hope that Congress will 
have the political will to eliminate sequestration entirely. I 
urge you to continue your efforts.
    General Dunford, in 2012, the U.S. and Japanese governments 
agreed to de-link the relocation of marines from Okinawa to 
Guam, from progress on the Futenma replacement facility. 
General, last week during your testimony to the Senate Armed 
Services Committee, you stated, ``We have to have the Futenma 
replacement facility in order for us to leave our current 
Futenma Air Station, and then back the redeployment to Guam as 
well and properly support the marines that are in the area.''
    I am concerned, General, that we may have given the 
impression that Futenma and Guam relocation are again linked. 
So can you clarify this point? And also quickly, can you 
comment on the progress of implementing the distributed laydown 
in the Asia-Pacific region?
    General Dunford. Congressman, thanks very much for giving 
me the chance to clarify. I was speaking in response to a 
question that said what are the issues that Congress should pay 
attention to with regard to the implementation of DPRI [Defense 
Policy Review Initiative]. And so, I did not link the Futenma 
replacement facility to the move to Guam. In fact, in the 
President's budget for 2016, we have funds for training ranges 
and we are proceeding apace for the move to Guam in 2021, 2022. 
So, that is absolutely on track.
    And so I would just say overall, our progress for DPRI is 
on path. However, one of the second-order effects of 
sequestration would certainly be to have an impact on DPRI. And 
I find it hard to imagine it would be able to sustain the plan 
we have right now were we to go below the President's budget.
    Ms. Bordallo. Thank you very much for clarifying that.
    Admiral Howard, I have a three-part question here, so if 
you could be brief in your answers. Pacific Fleet has stated, 
``the restoration of a dry-docking capability on Guam remains a 
strategic requirement and operational necessity.'' Last year, a 
submarine tender was sent from Guam back to the West Coast for 
the overhaul which was costly. What are the costs and the 
impacts on fleet readiness imposed by sending ships from their 
Western Pacific area of responsibilities back to the U.S. 
mainland for dry-docking?
    And further, 2 years ago, MSC [Military Sealift Command] 
indicated in a letter to the Governor of Guam that it would 
pursue dry-docking availabilities as a follow-on contracting 
action. I reluctantly agreed to this strategy, but expected the 
Navy to follow through on its commitment. To date, that has not 
occurred. So can you get an update on this situation and when 
will a request for information be released for chartering a 
dry-dock on Guam?
    Admiral Howard. Congresswoman, thank you for that question. 
And obviously, the repair and maintenance of our ships in Guam 
is a strategic priority for us, and our ability to be forward-
deployed particularly with the Pacific rebalance.
    In regards to the specific cost of sending ships back, I 
would have to get to you the dollar cost. Clearly, sending 
ships back stateside has a responsiveness cost for our forces. 
We are still looking at the economic feasibility of getting a 
dry dock into Guam and we owe you an answer shortly on that.
    Ms. Bordallo. Thank you, Admiral.
    Mr. Wilson [presiding]. Thank you, Congresswoman Bordallo 
of Guam.
    We now proceed to Congressman Frank LoBiondo of New Jersey.
    Mr. LoBiondo. I join with my colleagues in thanking all of 
you for being here and your service to our country.
    General Welsh, I have a question. What are the--actually 
two--what are the Air Force's plans to address the urgent 
operational need for radar upgrades for F-16 Block 30 aircraft 
currently conducting their aerospace control alert mission?
    General Welsh. Congressman, we need to develop an AESA 
[active electronically scanned array] radar plan for our F-16s 
who are conducting the homeland defense mission in particular. 
Our entire fleet--Active, Guard, and Reserve--none of them have 
been upgraded with that radar.
    The RDT&E [research, development, test, and evaluation] 
money we have in the budget for this year, hopefully we can 
move forward with this effort. It is about $25 million to do 
RDT&E on a radar that just is integrated with the air-to-air 
mission for those F-16s. We would prefer to spend about $75 
million if we can find the funding, to do the RDT&E to build a 
fully integrated AESA radar.
    The cost of one versus the other to actually procure for 
the airplanes is relatively close. It is about $2.8 million for 
the nonintegrated radar and about $3.2 million for aircraft for 
the integrated radar. So we think that is the way to go. We are 
looking now at how we can do that as we move forward.
    Part of the problem is that the CAPES [combat avionics 
programmed extension suite] program to develop F-16 upgrades 
was part of the BCA cuts to modernization that we were forced 
to take when we cut about 50 percent of our modernization 
programs. So we have got to solve this problem for a lot of 
reasons operationally.
    Mr. LoBiondo. Do you have any plans to revisit the CAPES 
program?
    General Welsh. Certainly not at this time, Congressman. We 
just simply don't have the money to fund CAPES for all our 
entire F-16 fleet.
    Mr. LoBiondo. Yes, I am sure you know the arguments that 
are laid out with the tight budget constraints that you are 
working under, that all of us are working under. What the Air 
Guard provides in terms of bang for the buck is really 
incredible. The statistics are staggering in a positive way.
    And not to have these F-16 Air Guard units be able to fully 
integrate I think would be a terrible tragedy. And I appreciate 
all you are doing to try to make that happen.
    And I yield back.
    Mr. Wilson. Thank you, Congressman LoBiondo.
    We now proceed to Congressman Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here and the 
important messages. This is a critical week in terms of the 
budget resolution being put together, and frankly, you know, we 
are forewarned by you all being here, and that is really 
important.
    Secretary Mabus, I want to again acknowledge the fact that 
your testimony on page 16 points out that during your tenure, 
the shipbuilding trajectory is on an upward angle, contrary to 
some of the noise that is out there. And also want to make 
sure, you know, to note that you are doing this with every 
public forum you have that opportunity.
    This morning's Wall Street Journal article, which I just 
had a chance to read through, again points out the fact that 
compared to 2009, we have actually turned the direction in 
terms of shipbuilding--military shipbuilding under your 
leadership. And it is going to have a benefit for decades to 
come.
    The question of the day, though, of course, is 
sequestration and the budget control caps, which I actually 
think is a better way to make sure people understand this. And 
just if you could briefly talk about if the Department is sort 
of left with the BCA caps, you know, what does that mean in 
terms of trying to, again, grow the size of the fleet?
    Secretary Mabus. Thank you, Congressman. If we go back to 
BCA, sequester, however you want to phrase it, I have said that 
I am going to protect shipbuilding as much as humanly possible. 
I believe the phrase I used, which evidently nobody outside 
Mississippi understood much, was I will protect shipbuilding 
until the last dog dies.
    But if we do that, something else is going to break because 
our maintenance--we are already behind on our maintenance 
because of sequestration in 2013. It is going to take us until 
2018 to catch up on our maintenance on our ships. It will take 
us until 2020 to catch up on our maintenance on our aircraft; 
that is at the President's budget level.
    Our bases--we are already falling below the sustainment 
rate that we believe we need. Our training--the last 
sequestration, we had air wings that had to go down to a hard 
deck, which meant the very minimum training. Our marines--
training at home station, the ones next to deploy and the ones 
after that, all have suffered under the first sequestration. 
And it would be a--I think a fair word is devastating in terms 
of the Navy's ability to respond to crisis, to surge, to meet a 
near-peer adversary. To do the things that America has come to 
expect, and should expect from its Navy and Marine Corps.
    Mr. Wilson. Thank you, Mr. Courtney.
    And we now proceed to Congressman Mike Turner of Ohio.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary McHugh, Secretary James, thank you for your 
articulation of the issue of the threat of sequestration. As 
you are all aware today, the House Budget Committee will unveil 
its budget, and it will be funding the Department of Defense at 
the sequestration number, which I oppose, and I think most 
people in this room oppose. And I appreciate your articulation 
of what happens.
    But I have had this conversation with most of you of--
that--you know, the more we talk in this room about the effects 
of sequestration, the less we win, right? Because we are all on 
the same page, but we have got to get the message outside of 
this room. And unfortunately, in this room, when we talk about 
sequestration, we use words like ``readiness,'' ``risk,'' 
``capability,'' ``mission.''
    General Odierno, I am going to ask you to help give us some 
clarity beyond words of ``readiness,'' ``risk,'' 
``capability,'' and ``mission.''
    You testified last week that only 33 percent of our 
brigades are ready, when our sustained readiness rate should be 
closer to 70 percent. This number is disturbing, both because 
its significance to our military, but the effects of it.
    When a brigade combat team, or BCT--which is the essential 
building block of the Army's combat power--isn't ready, and the 
Army isn't ready to fight, but they go to fight, General 
Odierno, could you describe to us--and doesn't this mean that 
more people will get injured or killed? It is not just an issue 
of readiness, risk, capability, or mission. It is that more 
people will get injured or killed. Is that correct?
    General Odierno. That is absolutely right, Congressman. It 
means it will take us longer to do our mission. It will cost us 
in lives. It will cost us in injuries. And it potentially could 
cost us in achieving the goals that we are attempting to 
achieve, as well.
    Mr. Turner. All right. So, the translation we need is, we 
can lose, people will die, and people will be injured?
    General Odierno. That is correct, sir.
    Mr. Turner. Now, General, if we go to the full 
sequestration for fiscal year 2016--and that is an issue that--
it is beyond just what the budget is--your goal of taking our 
brigades to 70 percent of readiness--how do you accomplish 
that?
    General Odierno. We will not. What we will do is, as you 
mentioned, we are 33 percent ready now. That will go down with 
sequestration probably to somewhere around 25 percent to 20 
percent. We will have to focus all our resources on a small 
part of the force just to meet everyday requirements that we 
have in the Army. The rest of the force will go untrained. And 
that means that if they are needed, they will not be able to do 
the job that we expect them to do. And our sons and daughters 
will be asked to do things without the proper training or 
readiness of their equipment.
    Mr. Turner. Which again means that more people will be 
injured or killed?
    General Odierno. That is correct, sir.
    Mr. Turner. General, you also testified that the number of 
Active Duty soldiers in the Army has fallen by 80,000 over the 
past 3 years. And it will fall another 70,000 if full 
sequestration comes into effect. With only 420,000 troops 
remaining, the Army would be substantially smaller than it was 
on 9/11. And we all know how it is--the world is not a safer 
place today than it was then.
    Secretary McHugh, could you please describe how that loss 
of manpower translates into risk to our troops, of injury and 
people being killed?
    Secretary McHugh. Well, it means, as the chief said, that 
with fewer soldiers to go out to do missions, we continue to 
run the risk, as we say, of sending an unprepared soldier into 
a very dangerous environment. We are doing everything we can to 
try to minimize that. But at 420,000, our judgment is very 
clearly that we would not be able to meet the Defense Strategic 
Guidance. That that would leave us absolutely no room to 
respond to the kinds of unforeseen contingencies that we have 
seen just in the past 18 months, whether it is Russia and 
Ukraine or whether it is Ebola in West Africa, or ISIL in Syria 
and Iraq. And I don't think that the American people are really 
postured to accept a United States military that can't answer 
the bell wherever the challenge may rise.
    But, again, it comes back to risk means people dying. Risk 
means greater injuries. Risk means people don't come home.
    Mr. Turner. Secretary James, if sequestration-level funding 
goes into effect, what is the most difficult strategic decision 
you are going to have to make?
    Secretary James. I worry about the very things that you 
said--that we will have airmen who will needlessly die and 
become injured. I worry that we will be slower to respond. 
Right now, our hallmark is, we are ready to fight tonight. 
Sequestration could endanger that.
    As you have heard my colleagues say, ultimately, we could 
lose in trying to reach our objective. Our national security 
strategy requires that we be able to do three very important 
things in a near simultaneous fashion. We cannot do them in 
that sort of fashion under sequestration. That is our best 
military advice.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Sequestration assumes that the Nation's debt is out of 
control, and so, therefore, we must cut spending. We cannot 
increase tax revenues. We must cut spending. And if that is 
true, then I am glad that both defense and non-defense spending 
are included in sequestration.
    I myself do not accept that premise. But if I am wrong and 
if it is true, then I am glad defense and non-defense spending 
are covered by sequestration. That is one point I want to make.
    The other point I want to make is sequestration is the 
wrong way to cut spending, both in the defense and in the non-
defense sectors of our budget. Why? It is because sequestration 
is just a blunt force instrument cutting across the board 
regardless of whether or not it is sensible enough to do so.
    It is true that fraud, waste, and abuse exists in both the 
defense and non-defense sectors. It is true. But it is also 
true that there are some sectors that we are doing some 
excellent cutting-edge necessary spending that does not need to 
be cut. And that is why sequestration needs to go away. It 
needs to go away for both defense and non-defense.
    Moreover, I think we need to come up off of this attitude 
that we can never increase taxes because we know that some 
folks--some corporations don't pay any taxes. We know that the 
middle class--middle-income and working people pay taxes. We 
know that the tax code is riddled with tax loopholes that 
enable others who should be paying and can afford to pay, not 
to pay.
    And so, they are riding--they are getting a free ride. 
Talking about entitled--entitlement--talking about an 
entitlement mentality, we got so many folks that can afford to 
pay that are not paying. And I think it is obscene that they 
would create the conditions under which we are here today, 
which is a hollowing out of our defense spending. Providing and 
protecting and promoting the common defense of this country is 
something that we must do. And we have had a lot of unforeseen 
incidents or unforeseen developments that have occurred. And 
you all have related to them. ISIL, Russian aggression.
    Just if each one of you--well, I will ask anyone who wants 
to respond--describe the key security environment challenges 
and threats that you are most concerned about, and the ability 
of your service to address them. What challenges have emerged 
in the last year that the defense strategy of your service's 
budget request does not adequately address? And similarly, in 
what areas have you recommended reduced--a reduced funding 
level? And for the secretaries, I will ask that question.
    Secretary McHugh. Congressman Johnson, I guess I can start.
    As I mentioned just previously, we can't pick and choose 
the things we worry about most. We have to be equally prepared 
to respond to wherever our national command authorities send 
us. Wherever the commanders believe there is a need, whether it 
is ISIL, where we have Army forces in Iraq, or whether it was 
in West Africa with Ebola, special operations--Army special 
operation forces throughout Africa, responding to a variety of 
emerging terrorist threats there.
    We have--again, as I mentioned in my opening comment--
forces in Estonia, Lithuania, forces in Poland, teaming with 
those nations. And they are a very important part of our new 
posture on the European Continent.
    We have some 20,000 soldiers, which we have used a 
longstanding mission on the Korean Peninsula. Certainly, with 
the threat of nuclear weapons there, that is a critical 
challenge. And I could go on and on, as I am sure the other 
services could, as well.
    Mr. Johnson. Thank you.
    My time is expired.
    The Chairman. Thank you.
    Chairman Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, ladies and 
gentlemen, for being here and for your service.
    I think we have picked up the thread here that all of you 
and the witnesses would like to see us spend more than the 
sequestration level--the President's budget or greater. And I 
think all of us know that we are trying to find a way here in 
Congress to make sure that we get to a number like that.
    I share your concerns about readiness. General Odierno, you 
are very clear about it. I have, obviously, some personal 
concerns about the Army readiness with my family. And we should 
all be concerned. But sometimes, we have issues that really 
aren't about money. And I know that the Commandant and I had a 
discussion on the phone the other day. And, General, I am 
sorry, I am going to go back there to that issue.
    Secretary McHugh, you talked about we send our young men 
and women into, ``a very dangerous environment.'' Well, some 
couple of weeks ago, we had apparently a very dangerous 
environment in Yemen. It was so dangerous that we sent extra 
marines in there. And then it was so dangerous that we 
evacuated all the Americans--closed the embassy, took the 
ambassador out, evacuated all the Americans. And in that 
process, even though we had an MEU [Marine expeditionary unit] 
on standby not far offshore, somebody made a decision--I want 
to work to that here on the record--somebody made a decision to 
destroy all of the crew-served weapons and have the marines, 
who were there to provide protection in this very dangerous 
environment, turn over their weapons, their individual weapons.
    And it is my opinion that that is an intolerable position 
for our Americans, particularly our men and women in uniform, 
whether marines or soldiers or sailors or airmen, to be in a 
very dangerous situation and depend upon trusting the very 
people who have put us in that very dangerous situation to not 
do us any harm while we turn over all our weapons.
    So, General Dunford, we just need to get for the record, 
that is my account of that--roughly what happened.
    And the marines, when they got on that civilian aircraft, 
contract aircraft, were totally unarmed. Is that correct?
    General Dunford. That is correct, Congressman.
    Mr. Kline. Thank you.
    Now, somebody made--who--let me, for the record--who gave 
the senior marine there the order to do that?
    General Dunford. The senior marine was under the United 
States Central Command [CENTCOM] chain of command, Congressman.
    Mr. Kline. So the commander of CENTCOM gave the order to 
the senior marine on the ground in Yemen to disarm?
    General Dunford. The senior CENTCOM officer on the ground 
gave that order, Congressman.
    Mr. Kline. Okay.
    And the decision, as well as you can relay it here for the 
record--the decision to do that was made where by whom?
    General Dunford. The ambassador and the commander of 
CENTCOM approved the plan, and my understanding is that went 
back to Washington, DC, at the policy level.
    Mr. Kline. Okay.
    And then also for the record, I think it is not classified 
that there were Navy-Marine Corps assets not far offshore. Is 
that correct?
    General Dunford. There were, Congressman.
    Mr. Kline. Well, I know General Dunford, he already knows 
how I feel about this, but I think that is intolerable.
    If that can happen to marines, General Odierno, it can 
happen to soldiers, it can anybody to be in a very dangerous 
place and be ordered to turn in their weapons while they are 
still in a very dangerous place when they are there to be part 
of the Armed Forces. I would hope that senior leaders sitting 
at this table, we would do everything--you would do everything 
in your power to see that that does not happen again. That is 
an outrageous situation.
    So thank you very much, General. I just wanted to get that 
on the record. We had the assets, we had the trained people 
where they were on the ground in a very dangerous place, and 
they were disarmed, put on a civilian airplane and sent home.
    I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to just get some more clarification on the type of 
role that sequestration is playing in terms of us wanting to, 
you know, I guess, sustain our superiority that we have when it 
comes to areas like readiness, technology, combat gear, you 
know, versus other powers that are also trying to stay ahead 
when it comes to the cutting edge in these areas.
    Secretary Mabus. I will speak for the Navy and Marine 
Corps.
    We have to stay ahead in terms of platforms, in terms of 
weapons, in terms of ordnance, in terms of systems, in terms of 
surveillance, in terms of any number of things.
    The danger that sequestration poses is that we will not be 
able to surge Navy ships, because they won't be maintained and 
we won't have the trained--we will not have done the training 
to get them ready to go.
    Same thing with the Marines. We will have Navy ships 
forward. We will have marines forward. It is the next to go. It 
is the ability to surge.
    Looking further out into the future, our technological edge 
is one of the crucial things that we have.
    Maintaining the money for research and development, for 
science and technology, and bringing those scientific advances 
to the warfighter in the field, those things are at risk, 
particularly on anti-access/area denial, that adversaries may 
try to force us out, to push us further and further afield.
    The weapons that we need, the ordnance that we need, the 
numbers that we need to do that will be at risk.
    The new technologies to meet some of the threats that we 
are facing now and that we are going to be facing in the not-
too-distant future, they go--that research goes down, that 
science and technology goes down. As much as we try to protect 
it, we simply cannot do that. So to use the language that other 
service secretaries and the service chiefs have used, the risks 
that we take is that we will get there later than we should, 
more Americans will die or be wounded, and we take a chance of 
losing.
    Secretary McHugh. Congressman, if I might add, for the 
Army--and I am sure the Marine Corps feels the very same way, 
but the reason we have been so superior on the battlefield is 
that young man or woman who picks up a rifle and goes into very 
dangerous situations.
    But it is because of that young warrior that we need to do 
everything we can to ensure that the weaponry we provide them, 
the platforms that support them have a superiority edge over 
whomever is our competitor at the moment.
    And as Secretary Mabus just very accurately noted, for all 
the services, certainly for the Army, that research and 
development, the R&D that is so critical to develop the 
weapons, the systems, the protection programs of the future, 
has been cut, just since 2012, by a third.
    We are fencing off S&T [science and technology], because we 
feel that is the core of tomorrow's technology. But overall, 
our ability to look into the future and ensure that over 10 
years it generally takes to develop some of these next-
generation platforms, we have it available.
    And with this funding level, we will not. The Army will not 
have a major developmental modernization program until the next 
decade.
    So sequestration only makes that worse.
    General Welsh. Congressman, we wrote the blueprint for how 
you build the world's greatest Air Force. We have other 
countries who have seen it, and they are now pursuing the same 
blueprint.
    And the capability gap is clearly closing. There is no 
question about that. And the trick over time, as budgets are 
more constrained, is how you manage that gap.
    I use a NASCAR analogy a lot when I talk to airmen. If the 
car trailing you has been behind for a couple of laps but is 
consistently slowing, eventually, they are going to get to a 
point where although they are still behind you, you cannot keep 
them from passing. And that is what we worry about in trying to 
manage this balance.
    When you hear terms like ``high-risk'' or ``significant 
risk'' come from a military leader, you should translate that 
as ``not guaranteed success,'' because that is what it means to 
us.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank all of you 
for being here and for your service to our country.
    Secretary McHugh, good to have you back in the old stomping 
grounds.
    I wanted to ask you again--I am going to stay on 
sequestration and its impact to our military--the members of 
this committee understand its implications and how adversely it 
is affecting our readiness and our ability to meet our 
challenges that Secretary James made reference to in our three 
objectives as a military.
    And in fact, I can talk about specific parochial examples 
of its impact on my district, as any member up here can.
    I have got Anniston Army Depot laying off 190 workers right 
now. I got part of Maxwell Air Force Base. They could talk 
about specific examples. I have got part of Fort Benning. They 
could talk about specific examples.
    And that is just parochial. We hear from y'all regularly 
about its impact on our readiness and our capabilities.
    Our colleagues don't understand, and you uniquely have been 
here, and you understand how difficult it is for us to convey 
to members who are focused on tax policy or Medicare or 
telecommunications what we are concerned about.
    So we really count on y'all--that is a Southern term, by 
the way--we count on you to help us communicate that message.
    And I have shared it with Chairman Dempsey that is--we have 
this need for members to understand. In fact, some in our 
leadership think this is working out pretty well for the 
military, because they are not hearing squealing or they are 
not hearing, ``the sky is falling,'' from some of y'all.
    So I am curious. Why do you think it has been difficult for 
those of you in the leadership in the military to convey 
specific examples of how this is very detrimental to our 
ability to protect this country?
    Secretary McHugh. You are asking me?
    Mr. Rogers. We will start with you, please.
    Secretary McHugh. Okay.
    Well, part of the reason why I think this opportunity, this 
moment is important is we tend to talk in code--``risk'' and 
other such words that don't convey to the average citizen, 
understandably, what that really means, loss of life, et 
cetera.
    The other is, frankly, one of opportunity. All of us go out 
and give speeches, talk to think tanks, try to engage in a way 
that gets the word out as to the reality of the challenges we 
are facing. But obviously, we have to do a lot more.
    The last point I would make before I turn over to my 
colleagues, I have said before that in part, we are victims of 
our own success. We came to this Congress before sequestration 
passed and predicted the effects. And thereafter, most of those 
effects weren't seen or felt, because I think, against the 
odds, all the services managed the unmanageable.
    We have been moving money. We have been putting off 
necessary programs. We have been delaying modernization. But 
those cuts, those delays, those ``we will do it next year'' 
have run out. And why the return of sequestration added already 
to the cuts we have taken will be such a backbreaker for this 
United States Army, certainly--and I would argue the military 
writ large.
    General Odierno. If I could just add, you know, I define it 
as, we are mortgaging the future to barely meet today's needs.
    And that is really my concern, is we are doing everything 
we can just to meet the commitments we have today, which are 
not overwhelming commitments. They are just basic commitments 
that we have to sustain normal security.
    Yes, we have an operation in Iraq. Yes, we have a small 
operation in Afghanistan. Yes, we have presence in Korea. Yes, 
we are doing some small things. But those aren't big 
operations; that is just day-to-day commitments, and we are 
struggling to meet those commitments.
    We are mortgaging our modernization. We are mortgaging our 
readiness just to meet these commitments that we have now. So 
if something bigger happens, we will not be able to respond in 
the way people are used to us responding.
    And that is the problem.
    Mr. Rogers. The thing that I am after is to get you all to 
help us by giving some specific examples. That is a very good 
example, but also some specific--sometimes parochial examples 
of platforms that you may have to give up; troop end strength 
you may have to reduce; installations you may have to close. 
Whatever, so that we can help them understand.
    Because it is difficult. I mean, generally, we have got 30 
to 45 seconds of a member's attention on the floor before they 
have moved on and are thinking about something different; that 
is a challenge.
    Briefly, Secretary James, before my time runs out.
    Secretary James. So, Congressman Rogers, we do have a list 
of specific things to include. In addition to the retirements 
in the President's budget, we would have to retire the U-2, the 
Global Hawk Block 40. We would reduce our combat air patrols. 
We would divest seven AWACs; KC-10 fleet, gone.
    So all of these things would go away. Plus, we would have 
to touch literally every part of our Air Force to come up with 
that differential in money. It would be enormous.
    And we would be willing to go anywhere, talk to anybody. 
Maybe you could help us set something up with leadership so 
that we could give some of these threat briefings, things that 
you know and that we know, but perhaps they don't know as well. 
And I just hope and pray it doesn't take a catastrophe in this 
country to wake up.
    Mr. Rogers. Excellent. Thank you.
    The Chairman. So do we all.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I would like to begin by thanking each of you for your 
service, and through each of you, I would like to thank the men 
and women who serve under you for their service to our country.
    I would like to begin with General Odierno, and ask you the 
following series of questions. As I understand it today in Iraq 
and Syria, the ground forces arrayed against ISIS [Islamic 
State of Iraq and Syria] are the Iraqi national army, the 
Kurdish Peshmerga, Iranian-sponsored Shiite militias, and to 
the degree that they exist, the moderate Syrian opposition 
forces, which we are helping to train and equip.
    Will those ground forces be sufficient to meet the 
President's objective of degrading, defeating, and destroying 
ISIS?
    General Odierno. It is yet to be understood. What I would 
say is depending on how well the Iraqi security forces do; 
Kurdish Peshmerga are performing incredibly well. Iraqi 
security forces are still being trained; not sure. I have great 
concern about Shia militias. I don't know who they work for. I 
am not sure who they are loyal to. I am not sure what they are 
trying to accomplish, so I have some concerns about their 
participation.
    We are working to train the moderate Syrian opposition. And 
so I think it is still time will tell. I think we have halted 
the movement of ISIL. I think we have had some initial, with 
the great work of the Air Force and the Navy and the Marine 
Corps Air, but I think we also have to wait and see how well 
these ground forces do. And we simply don't know yet.
    Mr. O'Rourke. Has any other country anywhere in the world, 
but especially in the Middle East, pledged ground forces to 
this effort?
    General Odierno. There are special operations forces from 
other countries that are participating in supporting and 
training the Iraqi security force and the Kurdish Peshmerga, as 
well as we begin to train the Sunni moderates.
    Mr. O'Rourke. And including those forces both on the ground 
and pledged for the future, does your assessment still stand 
that too soon to tell whether those----
    General Odierno. That is correct.
    Mr. O'Rourke. Okay. And so I would assume that if we are 
going to achieve the President's stated objective of defeating 
and destroying ISIS, it is very possible that we will need 
additional ground forces. And it is very possible that we as a 
Congress will have to make a decision about funding and 
supporting our ground forces in that country--in those two 
countries.
    And I guess my question for you and for Secretary McHugh 
is: Does the budget that you are proposing today, the 
President's budget, have sufficient resources to ensure that we 
are training our soldiers, that their readiness is at the level 
that is necessary, and that we can support them through the 
following budget year to the degree that we need to to ensure 
that they can prevail? And that we don't unnecessarily put them 
in harm's way due to lack of training, readiness or equipment?
    General Odierno. If we had to--the President's budget 
allows us to sustain where we are at in readiness, maybe 
increase it a little bit. If we get into a sustained conflict, 
that is years, we would need more dollars in order to develop 
the proper readiness for us to repeatedly redeploy our soldiers 
into harm's way. We do not have that level in the budget today.
    Mr. O'Rourke. In this budget?
    General Odierno. In this budget.
    Mr. O'Rourke. Okay.
    Secretary McHugh. I would fully agree. I would note, of 
course, there is always an option to ask us to stop doing the 
things we are doing right now. Given the missions that all the 
services are arrayed against, I can't imagine what that would 
be. But short of a very dramatic, probably unpalatable decision 
point such as that, we would not be able to meet that.
    Mr. O'Rourke. Let me ask you a related question. Secretary 
James talked about even more difficult choices if we continue 
with the budget caps and the sequester. And I think that should 
extend to political choices, diplomatic choices, and choices 
that our allies make.
    You mentioned that in response to Russian aggression in 
Ukraine, we have deployed additional forces to Estonia, to 
Latvia, to Lithuania, to Poland. But when you look at those 
countries' defense budgets, what they spend as a percentage of 
their GDP [gross domestic product] compared to what we spend is 
insufficient. What more do we need to do to force other 
countries to make the difficult decisions to get their 
taxpayers to support these missions that are arguably more in 
their national interest than they are in ours?
    Secretary McHugh. Well, that is a--it is a big challenge 
and a moving target, and one that Secretaries of Defense, 
certainly going back in my time to Secretary Gates, have tried 
to press upon largely our European allies. Only 4 of the 28 
NATO nations currently meet the 2 percent requirement. I might 
add, Estonia is one of them.
    But as you noted, when it comes to Russia and the concerns 
that we see driving out of Ukraine, all of us would like to 
work more closely with our European allies.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Conaway--Chairman Conaway?
    Mr. Conaway. Thank you, Chairman.
    And I thank the folks for being here today.
    I am encouraged that whenever it has been my experience, 
and Secretary McHugh knows this too, that when a question rises 
to the top level of the committee up there, that it is--we are 
gaining some traction. And so I want to follow up on Mr. 
Miller's comments about auditing. That probably doesn't shock 
anybody.
    One quick anecdote. I shared this with Secretary Mabus the 
other day. I was touring the USS Texas, a submarine, and we 
were having an impromptu town hall meeting in the galley with 
some young sailors. And one of the kids asked me during the 
question-and-answer period: How is that audit thing coming, 
with auditing the Department of Defense?
    So, I don't know if that was a plant, Secretary Mabus, or--
--
    Secretary Mabus. How about those sailors?
    Mr. Conaway [continuing]. A really smart, really smart--or 
just sucking up to a member of the House Armed Services 
Committee.
    Does--and taking off the chairman's kind of model, each of 
you respond. Does the President's budget fully fund or properly 
fund the continued efforts at reaching the goal that all of us 
want to get to, and that is audited financial statements for 
the Department of Defense?
    Secretary McHugh. We assess the funding available to the 
Army initiative within the President's budget as sufficient to 
carry us forward and meet those milestones.
    Secretary Mabus. Mr. Chairman, the President's budget is 
sufficient for the Navy and Marine Corps to meet the 
milestones. I would like to circle back around, though. There 
are some things that we don't control that worry me a lot about 
whether we are going to meet this audit. And not in terms of 
funding, but in terms of assurance of numbers.
    Secretary James. And yes, for the Air Force, but with that 
same caveat.
    Mr. Conaway. I think for a second, I did brag on the Marine 
Corps. You guys led the way on auditing. We have moved from 
getting ready to audit, to auditing. And all the services are 
now doing that, and it is a better learning experience, so the 
Marine Corps led the way again.
    General Dunford, a little bit before your time when that 
got started, but you are keeping it forward.
    So, Secretary Mabus and others, I think you are making 
reference to other agencies that are an integral part to your 
financial statements, they themselves are not audited. Do you 
sense that the commitment at the--whoever is in charge of that 
effort, rivals your own? Or do we need to harass them more?
    Secretary Mabus. Well, our sense is that we are sharing our 
concerns, and to use a military term, in a robust way, with 
those--particularly with Defense Finance and Accounting 
Service. That is the one that concerns us. That is the one that 
does not have the internal controls that we need to have some 
assurance about the numbers that they give us.
    Mr. Conaway. Right. The other secretaries? Ms. James, same 
to you.
    Secretary James. Likewise. We have communicated our 
concerns. Certainly the top leaders of the Department of 
Defense, they are aware that we are concerned about this; the 
comptroller, to whom the DFAS reports. So I think everybody is 
working collaboratively to try to get there from here.
    Secretary McHugh. As I believe DFAS's largest customer, the 
Army has equally extended our concerns to the appropriate 
departmental authorities. Part of the problem I think DFAS 
faces, quite frankly, is that like the rest of us, their 
customer base is coming down. They are going to write fewer 
checks as end strength decreases. Their business flow will 
decrease. And I know, Mr. Conaway, you understand the realities 
of that kind of trend line more than anyone else perhaps in 
this room.
    But I haven't yet seen a commensurate amount of response 
from DFAS to accommodate what seems to most of us to be an 
inescapable reality. I don't want to ascribe motivation to 
that, but as my colleagues have said, it will affect our 
ability to receive a clean audit, given the relationship 
amongst all of us with that organization.
    Mr. Conaway. Well, let me just finish up by telling you--
thanking you for your service across the--all of your 
responsibilities, but also thanking each of you for what I 
perceive to be full-throated commitment to getting this 
important deal done. We are talking about budgeting and 
spending, and the American taxpayer obviously would love to 
have audited financial statements as kind of the Good 
Housekeeping Seal of Approval that is out there. And I 
appreciate each of your commitments to doing that in the face 
of sequestration and budget cuts and all the other things that 
are going on. I thank you for your efforts on getting that 
done.
    And I yield back. Thank you.
    The Chairman. We are going to have the comptroller here 
with us tomorrow. And it will be another opportunity to raise 
this issue. Because I do agree with the gentleman. This is 
really important. If we are going to make the case to increase 
defense spending, there has to be accountability that goes with 
it. And so this carries big implications.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. This question is 
directed at Secretary James. I am a beneficiary of close air 
support [CAS] from the A-10, so I am disturbed to hear that it 
is back on the chopping block.
    So one, I would just like to, you know, point out, and 
maybe you could comment on this, too, that in the era where we 
seem to be more engaged in the type of combat where an A-10 
close air support would actually be more useful, is it really 
wise to be putting it on the chopping block?
    And two, if it is on the chopping block, then what is the 
weapon system platform that is going to be replacing it, that 
is going to be able to provide the same type of close air 
support to your infantrymen?
    Secretary James. So Congressman, please let me start and 
then I want of course General Welsh to chip in----
    Mr. Gallego. Sure.
    Secretary James [continuing]. Because he is a former A-10 
pilot actually, so he is extremely knowledgeable.
    I will tell you that the A-10 ended up on this list to 
reduce with the greatest of reluctance. It was a budgetary 
matter, and it literally after reviewing all of the different 
alternatives about how we could come up with the budgetary 
savings this one, because of the single-purpose nature, and 
because we do have other aircraft in the inventory that can do 
close air support. So that is how we got to where we are today.
    In terms of what are the next aircraft that will bridge the 
gap, so to speak, of course we do have our other aircraft that 
are currently flying some of these missions to include the F-
15Es, the F-16s, and so forth, so they will be with us for 
years to come, as will eventually come into play the F-35. So 
that one is of course on the horizon. It is not with us yet, 
but will be coming online in the next few years.
    Mr. Gallego. To that point, before we move on, the 
platforms you just mentioned, what type of rotary gun do they 
have, and are they 30-millimeter mortar--I am sorry, 30-
millimeter guns, and are they going to be capable--just as 
capable as the A-10 Warthog in terms of support?
    General Welsh. Well, Congressman, it depends on the 
scenario. No, none of them carry a 30-millimeter gun. They 
carry 25 in the case of the F-35 and 20-millimeter guns in the 
F-15E and the F-16.
    The issue isn't the A-10, Congressman; the issue is the 
Budget Control Act caused us to make some really tough 
prioritization decisions. And when we talked to the combatant 
commanders and asked them where they preferred that we take the 
cuts and where they preferred we prioritize our funding they 
gave us real clear answers, and the A-10 was not one of them.
    We have done the operational analysis on this. We would 
love to show you the impact on the battlespace, low threat 
through high threat. This is just the front edge of a lot of 
very ugly decisions that are going to have to be made if we 
stay at BCA-level funding.
    The workhorse of our CAS fleet has been the F-16, not the 
A-10, for the last 8 years. It has flown thousands more CAS 
sorties than the A-10.
    Are there scenarios where you would prefer an A-10 to be 
there? Absolutely. And there are some you would prefer a B-1 
with 32 JDAMs [Joint Direct Attack Munitions] at night, above 
the weather. And there are some you would prefer an AC-130.
    And my Marine infantry officer son would prefer a Marine 
Corps F/A-18. The scenarios change that requirement.
    But the issue here is not any particular platform. CAS is a 
mission priority for us. It is part of our fabric. We are going 
to be doing CAS 10, 20, 50 years from now. And the A-10 is not 
going to be doing it then.
    So we have got to look at how we transition to a future 
capability that will work on both a low threat and a high 
threat battlefield, and that is what we are trying to do, and 
we are doing this collaboratively with the Marine Corps, with 
the Navy, with the Army, and we are working this in terms of 
weapon systems. We are working at weapons themselves that we 
could put on different platforms.
    There is no question about our commitment to this mission, 
and we have got about 140,000 data points from the last 7 years 
to prove it.
    Mr. Gallego. Mr. Chair--I apologize. I lost track of your 
name, sir. What was your name again?
    General Welsh. Mark Welsh, sir.
    Mr. Gallego. Thank you.
    I would love to see the studies, just because at least from 
what--my understanding the past efforts to replace the A-10 
back in the 1980s and 1990s were pretty much duds and didn't 
end up doing the same kind of effectiveness that the A-10 did.
    So if you could share any of those studies to--you know, 
especially just to put me at ease, I mean, it really did save 
me in the pinch, and I think a lot of us infantrymen--former, 
current, and in the future--would love to still have that 
assurance that that kind of close air support would be 
available.
    General Welsh. Yes, sir. So would us former pilots. 
Unfortunately, money precludes that.
    We would love to come talk to you about this and give you 
the whole story.
    Mr. Gallego. Thank you, Mr. Chair. I yield back my time.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Ladies and gentlemen 
of the panel, thank you so much for your service to our Nation. 
We deeply appreciate that, especially your commitment during 
these challenging times.
    I want to follow up from some comments that were made 
earlier. We all know the devastating effects of sequestration. 
But there are some that look at efficiencies within the 
Pentagon, and you have heard the chairman speak about it.
    Some of the questions are about the acquisition and 
procurement process, and the chairman, as well as others of us, 
have looked at how we can fix that to actually empower decision 
making within the Pentagon to make sure we are indeed as 
efficient as possible in spending those precious dollars that 
get to the Pentagon.
    I think the question is this, is give us your perspective 
on where the current obstacles are in the acquisition process. 
Is there a need for additional acquisition authorities, and 
what can we do to fix and reform the acquisition and 
procurement process to make sure that it is indeed as efficient 
as possible and that we can demonstrate that every penny that 
goes to the Pentagon is getting to the right place and that we 
are doing the best job possible in making those decisions?
    Secretary Mabus. I will start very briefly.
    Here is a chart of what we have to do to buy anything but 
particularly a major weapon system. It takes forever. It is 
costly.
    The thing you could do for us is cut out a lot of this.
    And we will be happy to give you details. I know that we 
have been over here doing that, but I think all of the services 
agree that the current system of just requirement after 
requirement after requirement after requirement, which--many of 
which don't add anything to the end value of the weapon, just 
needs to be pruned back pretty dramatically.
    General Odierno. If I could just add, I would like to see 
an increased role of the service chiefs, which was 
significantly reduced in 1986 with Goldwater-Nichols. I think 
it is important to have their experience, as we are going 
through this, with some authority.
    I would also tell you, I think there are--I agree with the 
bureaucracy--the number of people who can say no to our systems 
is significant. That increases the time sometimes it takes.
    In the Army specifically, I would tell you--the Army has a 
lot of small programs, and I would like to see the limit raise 
from $1 billion to $10 billion those that require specific DOD 
oversight. And a program under $10 billion, I would like to see 
the Army have the responsibility and have the accountability to 
ensure that those programs are capable.
    And I think that would enable to speed up the processes 
that we have, and I think there are many others that we could 
give.
    Secretary McHugh. Mr. Wittman, if I could just add a little 
math to my good friend Ray Mabus's chartology, I will give you 
one example of the complex bureaucracy.
    PIM [Paladin Integrated Management], our new artillery 
system, the Milestone C decision was reached by the Army in 
October of 2013. That one milestone required 3,185 pages of 
primary documentation and took 1,742 calendar days just to 
develop the documents and to get through the process--1,800 
days to approve it.
    Not all of that is bad. All of that is, in part, I think, 
necessary. But there is overlap, and as Chairman Thornberry and 
I know Chairman McCain in the other House and many of all of 
you are focused upon, I think we could save a lot of time, 
which in acquisition means money, without giving up the kinds 
of assurances that all of us, I think, believe are really, 
really important.
    Mr. Wittman. Very good.
    Secretary James.
    Secretary James. And I don't have a cool prop. That was 
pretty slick, Mr. Secretary Mabus. Yeah, I like that.
    [Laughter.]
    But I certainly agree with trying to, as best as you can, 
streamline some of the reporting requirements, some of the 
processes.
    I know the tendency, when things go wrong, is put more 
process and more oversight. But actually, again, from a 
business perspective, the less in this case, the better. Trust 
people and hold them accountable when things go wrong.
    In terms of the service chief involvement, I am not exactly 
sure how everybody else handles it across the board, but my 
service chief and I, we do pretty much everything together, so 
we are already heavily doing program reviews and watching over 
our programs as best as we can.
    Mr. Wittman. Very good.
    General Dunford, your perspective?
    General Dunford. Thanks, Congressman.
    I don't really have anything to add. I would associate 
myself with General Odierno's comment about the service chiefs, 
though.
    Today, we are actually responsible for requirements and 
resources and not outcome, and I think that is where I would 
zero in on, is the service chiefs' responsibilities for outcome 
as well.
    Mr. Wittman. Admiral Howard.
    Admiral Howard. Besides the simplification, there is also a 
sense of agility to all of this. So as time unfolds and 
programs change and requirements change in terms of cost and 
scheduling and then what is appropriate to keep, what is 
appropriate to enhance, I think the service chiefs would 
appreciate an opportunity to have a voice in that process.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    And Admiral, I think that agility point is a key one that 
we don't spend enough time talking about. In a volatile world 
that we live in, being able to be agile in response is just 
essential.
    Ms. Graham.
    Ms. Graham. Thank you very much, Mr. Chairman, and thanks 
to each of you for your service to our country.
    First, I would like to offer my condolences to the families 
of the seven marines and the four soldiers who lost their lives 
in a training exercise in the Gulf of Mexico last week. 
Anything that I can do in the Second Congressional District to 
help you all, please do not hesitate to call upon me or anyone 
on my team.
    My first question is for Secretary McHugh, Secretary Mabus, 
and Secretary James.
    As the Congress debates a new authorization for use of 
military force, one of my priorities is knowing that should we 
engage militarily in current or future conflicts, our service 
members go into the fight with confidence that this country 
will take care of them when they return home.
    In 2007, the Dole-Shalala Commission recommended the 
establishment of recovery-care coordinators at both DOD and the 
VA [Department of Veterans Affairs] to care for wounded 
warriors.
    If, God forbid, service members should become severely 
injured or ill while serving our country, I want to make sure 
that they know we will do everything in our power to get them 
the care they need when they return home.
    So I would like to learn what are your service branches 
doing to ensure the transition from active service to the VA 
for our most wounded, injured, and ill service members, and 
what more can we do to make sure that we identify every 
discharged service member who qualifies for VA's Federal 
recovery care?
    And I have one more question following this one. I 
appreciate your answers.
    Secretary McHugh. Well, if I may start, it is a critically 
important question and one that I tried to at least allude to 
in my opening comments. We have, I think, a legal 
responsibility but even more importantly, a moral 
responsibility to ensure that those who return home in the 
first instance get the medical care that they deserve.
    And all of us that set up wounded warrior care facilities, 
where we are reconfiguring ours now, both to respond to the 
realities of the diminishing budgets but also the phasing out 
of wartime activities that we have endured for the last 13 
years, but also to ensure that we are providing care in the 
most effective, efficient manner possible.
    The story of transitioning from active service over to VA 
care has been one of challenges and successes. And thanks, in 
no small measure, to the Congress and their focus on that, all 
of us have come a long way toward ensuring through the, what is 
known as the IDES [Integrated Disability Evaluation System] 
process, the process by which the medically retired are moved 
over to the VA has improved.
    For the Army, a much different story than it was in recent 
years where we are meeting all the current timeframes as to the 
development of the case file, the scheduling of the--of 
physicals and such. And I have provided a dashboard whereby all 
soldiers can go up and see exactly where they are in that 
process.
    The source of frustration in the past was they didn't know 
where they were, didn't know what their next appointment was. 
We have provided that visibility.
    We are meeting, as I said, all the standards that DOD has. 
There are still challenges between the VA and the United States 
military, DOD, and we are supporting the VA to help them meet 
those objectives as well. It has been something of a moving 
target, but I understand the VA now thinks they will be in 
compliance with the processing, hopefully--I believe, it is by 
the start of next year.
    Ms. Graham. Thank you, Secretary McHugh.
    Secretary Mabus. What Secretary McHugh said, we have no 
higher, greater responsibility than to care for those who have 
borne the battle. And through the experience that we have had--
Secretary McHugh very well described some of these things 
that--the Marines have the Wounded Warrior battalions. Navy has 
a program called Safe Harbor, and it is to aid in the medical 
care, the reintegration, either back into the military or into 
civilian life, of those who have been wounded and to give each 
of them an advocate to help them through the process, to make 
appointments for them, to tell them what benefits are 
available, and to do it for them and for their caregivers, for 
their family members or friends who have assumed the burden of 
caring for them.
    And we are also meeting and exceeding the requirements in 
terms of time. But I would say that even though we are doing 
that, we can do better.
    The Chairman. If the gentlelady--if the other witnesses 
want to add, if you would please do so in writing----
    Ms. Graham. That is fine.
    The Chairman [continuing]. So we can move along.
    Ms. Graham. I am sorry.
    The Chairman. Appreciate it.
    Ms. Graham. I look forward to reading whatever you have to 
add.
    Secretary James. Will do. Thank you.
    Ms. Graham. Thank you.
    The Chairman. Thank you, ma'am.
    Ms. Graham. One more question? Is that----
    The Chairman. Sorry. Gentlelady's time has expired, 
although you are certainly welcome to submit additional 
questions in writing to the witnesses.
    Ms. Graham. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And I want to thank and congratulate our panel of service 
chiefs and secretaries today. Thank you for your service at 
this critical time in history and all the great work that you 
are doing.
    I want to particularly cite Secretary James and General--
Chairman Walsh as well, because--Welsh, I am sorry--because 
that you have put our nuclear triad and our nuclear enterprise 
at such a high priority level. That is so important. And I am 
very concerned about our bombers, our B-52s, and the fact that 
you have the Long-Range Strike Bomber in your sights. I really 
appreciate that. That is so important.
    I am going to ask a general question, and I am not sure who 
is best qualified to answer this, and this really may more be a 
chairman question for the Budget Committee. But we are talking 
about OCO [overseas contingency operations] used to supplement 
and get us beyond those caps.
    The question many of us have is how much of that, or in 
what way can that be used in useful ways beyond just the 
underlying purpose of OCO?
    Secretary McHugh.
    Secretary McHugh. I don't claim any particular expertise, 
but I can provide a response at least from the Army 
perspective. Based on some of the articles I have read and 
discussions that I have been in, I believe for the Army, the 
committees are looking at placing the cost of our end strength 
above 450 [thousand] into OCO, which by most standards would be 
an allowable OCO utilization.
    That would provide the Army, a rough estimate here, about 
$4.2 billion in relief of the $6 billion that the President's 
budget would provide over sequestration. That is a far better 
outcome than sequestration. There is no argument about that. I 
do think we have to be mindful--for the Army right now, we have 
about $5.5 billion in our current OCO accounts that really 
should be in the base. And that is a factor of many things that 
happened in recent years in theater.
    So, we have got to move that money over at some point. That 
is a challenge. To add to that, it is just I think important 
for everyone to understand, will add to the challenge of 
getting into the base budget at some point in the future those 
unsupportable funds that are currently residing in OCO.
    Dr. Fleming. So, I appreciate your answer. So you are 
saying that in terms of end strength, that it is useful for 
that purpose. And I am very concerned. Fort Polk is in my 
district. There have been huge amounts of investments. We have 
grown the training area by 40,000 acres. There have been huge 
investments in military construction. And yet we could see the 
strength go from 10,000 down to as low as 2,000 troops. That 
would be a huge waste of money going forward. And you know just 
how key that base is for training for overseas operations.
    Now, for the Air Force, how does that using OCO money 
plusing-up with that, how does that affect what you do? Are 
there some limitations in how you can use that usefully?
    Secretary James. Well, I would say that under the rules of 
what is allowable to go into OCO, we, too, have constraints 
similar to what you heard Secretary McHugh talk about. And I 
don't pretend to be an absolute expert in all of this, but the 
basic rule is that the overseas operations are what are funded 
through OCO.
    And I am sure that we--I couldn't quote you the figures--
but we also have at present certain things in OCO which 
probably more specifically belong--rightfully belong in the 
base budget.
    My plea to you would simply be I don't exactly know how to 
fix this, but if the use of OCO, if it is allowable or if you 
can find a way to make it allowable, and if that gets over this 
hump, I am all in favor of getting over this hump because we 
are all very much needing it.
    General Welsh. Congressman, I would just add that the real 
issue for us, because we are really in a dire place as far as 
needing to recapitalize and modernize the Air Force. Secretary 
James talked about fleet ages, et cetera. The problem with OCO 
funding is that you can't count on it over time for a long-term 
investment in modernization, which is one of the problems we 
have. So anything is better than nothing, however.
    Dr. Fleming. Right. Well, and I appreciate that fact. The 
problem, as you well know, is if we take those caps off, the 
other caps come off, and then, you know, we begin a downward 
spiral in our budget. So this is being creative by using OCO 
funds to plus-up our military. But considering all the parties 
involved, that seems the best approach to take.
    So with that, I yield back. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    One of the things that comes up in the midst of these 
challenging budget discussions, when we all have to make 
tradeoffs, are some of the political obstacles that members of 
this committee or even the larger of the Congress put in front 
of you.
    And I would like to just take a minute to try to bring some 
of those to the surface. I mean, we have heard talk about cuts 
you want to make that are painful, like cutting the A-10 or 
making changes in the compensation system. But if each of you 
could explicate for us a few--in greater detail--a few of these 
challenges that you see from us when you are trying to make 
sure that you do your jobs under, you know, the constraints 
that we put before you.
    General Odierno. So, if you want specific examples, so the 
specific example for us is end strength. So, you know, we have 
taken 80,000 out of the Active Component. Even under the 
President's budget, we are going to take 100--it will be a 
total of 120,000 out of the Active Component; 20,000 out of the 
National Guard; and about 10,000 out of the U.S. Army Reserve. 
So that--we have significantly reduced our size and ability to 
respond.
    But in addition to that, we still have about a 4- to 5-year 
readiness problem because we still don't have enough money, 
even as we go down to those levels, to sustain a level of 
readiness until about 2020. So we have about a 5-year 
significant risk window. We have already canceled our infantry 
fighting vehicle, which we desperately need.
    Mr. Moulton. Right. But General Odierno, I am not asking 
for examples of cuts you don't want to make. I am asking for 
examples of cuts you do want to make, but for political reasons 
in the Congress, you are not able to make them.
    General Odierno. Yes, so I think, okay. Thank you. What I 
would say is, first, first and foremost, is BRAC [Base 
Realignment and Closure]. We have a billion dollars, half-a-
billion dollars a year of excess infrastructure in the Army as 
we downsize. We have to address that issue. If we don't, we are 
going to have to pay for that.
    Pay and compensation and Army Aviation Restructuring 
Initiative is--both of those combine to be $6 billion. So if we 
don't get those reforms, we are going to have to find $6 
billion and we are going to have to find another half-billion 
for BRAC, because that is what it costs every year of our 
excess infrastructure. So if we don't get those things, we are 
going to have to find that money somewhere.
    Mr. Moulton. Great. Thank you.
    Mr. Secretary.
    Secretary Mabus. For Navy and Marine Corps, it is slowing 
down the growth of pay and compensation. We simply have to do 
that. We are at the point where we are choosing between keeping 
people or getting them the tools that they need to do their 
job. And I think the proposals that have been put forward are 
reasonable. They are sound.
    And from talking to sailors and marines around the world, 
they are--the thing that concerns them the most is certainty, 
and the concern about sequester and whether they will have the 
tools to do the job that they joined the Navy and Marine Corps 
to do.
    Secretary James. And Congressman, in addition, you heard me 
of course say the A-10 and the compensation reforms. I 
certainly agree with BRAC. I would add just a couple of other 
examples. Over the last year or two, we have a series of aging 
platforms where we have proposed retiring some of them in order 
to free up money to modernize the rest of them and to go to the 
next generation. And those sorts of actions have tended to be 
blocked. So I am thinking of the JSTARS [Joint Surveillance 
Target Attack Radar System] last year. And there is a series of 
them in that regard.
    One other that I will give you, which, you know, it is 
difficult to work through, and I am an alumni of this 
committee, so I understand this. But nonetheless, these are 
tough choices. We have too many overall C-130s in our fleet. 
For all the shortages we have, that is the one platform that 
leaps to mind that we probably have too many of them. So we are 
trying to reduce the overall numbers. We are trying to 
modernize. We are trying to upgrade some of the older ones we 
are going to keep.
    So we have got all of this going on at once, and we are 
trying also to shift them around the country to get better 
efficiencies and also to provide certain coverage of certain 
areas because we don't have the authority to do a BRAC.
    Well, that whole movement, that entire plan has been put on 
hold. And so we can't do it until, you know, we provide 
additional information, more reports and the like. So those 
would be some additional examples I would offer up.
    Admiral Howard. Congressman, if I may, we appreciate the 
work with the Congress on our cruiser modernization program, 
the original sustainment, modernization, and operational fund. 
If we could get back to the original intent of that fund and 
remove those restraints, that would be helpful.
    Mr. Moulton. Thank you very much. I think the key point 
here is that sometimes when we are protecting jobs back here at 
home, we are putting lives at risk overseas. And it is really 
your decision to make those tradeoffs. If you have anything to 
add in writing, I would appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I appreciate the panelists. And I, for one, have been 
listening very carefully these many months, indeed years. And I 
think that the services have provided great detail about the 
impacts--negative impacts of sequester.
    In 2012, I voted for a bipartisan budget that would have 
completely replaced the sequester. Unfortunately, it only got 
38 votes that day. And then I voted for Ryan-Murray that at 
least gave us reprieve for 2 years.
    So I hope that in the Congress we have the wisdom and the 
will, we summon it up to replace hopefully in total the 
sequester, but at least for a period of time to give some 
stability for the services going forward.
    Mr. Chairman, you mentioned agility just a few moments ago. 
That is where I want to go with this. Two different types of 
threats--we deal with nation-states, we deal with transnational 
actors. Focus on the former in this question. With nation-
states, so much of the world's actions can be explained by this 
concept of deterrence. And deterrence roughly assembled through 
capability and will.
    And particularly, I am interested in delving into strategic 
maneuver and our ability to strengthen the hands of diplomats 
by restoring the Global Response Force capability. So I am 
interested from each of the services, starting with the Air 
Force, your commitment to the Global Response Force with 
budgetary detail. And you can also include modeling and 
simulation and exercises towards that end.
    To the Air Force first.
    General Welsh. Congressman, I believe I will be the same as 
the other service chiefs. We are committed to the Global 
Response Force. The problem we have is filling the Global 
Response Force when all our assets are being used in operations 
everywhere else. We are--the Air Force's issue with force 
structure is that we have a limited capacity now in certain key 
areas.
    We have got ISR, mobility, air refueling, and command and 
control in demand on all parts of the globe. And as a result, 
we cannot meet the combatant commanders' requirements today in 
those areas. We just don't have enough of it anymore.
    And as you have heard us discuss already today, BCA levels 
of funding will make us decrease more--take more capacity out 
of those areas. The problem is going to get worse.
    So while we are committed to the Global Response Force, the 
problem is the assets required to fill it are already doing 
something.
    Mr. Gibson. And before we go on to the other services, Mr. 
Chairman, I would just say that one of the things I think our 
committee should be doing is documenting this risk and just how 
critical I think it is in terms of--to what degree we talk 
about everyday about Russia, we talk about Iran, we talk about 
North Korea, but we haven't really talked about our role in 
restoring this capability.
    Let me go to the other services.
    General Dunford. Congressman, thanks.
    And our situation is much like General Welsh. I mean, we 
are committed to the Global Response Force. We are meeting our 
requirements in the Global Response Force right now, which is a 
fairly small commitment.
    But more broadly, it is the forces that are back at home 
station, currently about 50 percent of them that have training, 
personnel, and equipment shortfalls that really are the 
concern, and so it is our ability to deal with the unexpected 
that really is the issue more broadly than the Global Response 
Force.
    Admiral Howard. Thank you, Congressman.
    So, in fact, I was at Fleet Forces Command when we 
sequestered in 2013, and the first thing that happened is we 
ended up eliminating some deployments, and we ended up reducing 
flying hours and steaming hours and getting that next set of 
deployers ready to go, and we ended up delaying the deployment 
of a carrier.
    And so when you talk about the Global Response Force, our 
ability to train our folks and our ability to have that next 
set ready is very much tied to the budgetary topline.
    Right now, we are--we have two carriers ready to go. We 
always have two ARGs [amphibious ready groups] ready to go. We 
are building back up to a larger surge capacity. But clearly, 
with sequestration, our ability to maintain that projection 
force generation is significantly challenged.
    General Odierno. Sir, we have a designated Global Response 
Force under the 82nd Airborne Division with enablers that is 
ready to go and prepared to go.
    What I would say, though, is because of the fact that we 
have less forward-stationed capability out of the Army now, the 
importance of Global Response Force has increased 
significantly.
    And unfortunately, I think it goes beyond now just the 
ability of the 82nd Airborne Division to do forced-entry 
operations anywhere in the world.
    I go back to--I agree with General Dunford. It really is 
about the total force being able to respond very quickly in a 
variety of different directions, both medium and heavy, and I 
worry about the readiness levels, as we have stated earlier, of 
units having the ability and capability to do that at the level 
we expect them to be able to do that.
    Mr. Gibson. I appreciate those responses.
    And then putting the joint DOD piece on this is modeling, 
simulating--and then how we work together as a team. And I 
think we have a long way to go. Chairman, thank you very much 
for the responses.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman, and thank you.
    You know, from a parochial perspective, my district is 
Omaha and Sarpy County, Nebraska, STRATCOM [Strategic Command], 
and the 55th Air Wing. And as a sort of historic tweak, my 
father flew B-26 bombers in World War II, and the plane was 
actually built at the Martin Bomber Plant, which is, I guess, 
now scheduled to be eventually now demolished, finally, after 
all these years--1943, it was built.
    Obviously, we are very proud of Offut [Air Force Base] and 
its history and STRATCOM, and thank you for all your support 
there.
    Congressman O'Rourke--there have been a number of questions 
asked regarding this question, but I really still don't have an 
answer. It is not because of you; it just seems so dynamic.
    Congressman O'Rourke asked the question about what--the 
situation in the Mideast, where we were--obviously, we have 
talked about that, is dynamic.
    And it seems to me that if the--we don't do something about 
sequestration, those problems are going to continue to exist, 
and they are, in some sense, imponderable. I mean, we don't 
know what is coming next.
    So I hate to be redundant, but I would just ask one more 
time, what do you see in the next year to two years, maybe, 
through 2016, possibly, with the possibility of this situation 
in the Middle East becoming more difficult or even just the 
level it is at now?
    General Odierno. Well, I think we understand for sure, as a 
minimum, we know we are going to have to continue to train 
Iraqi security forces, advise them, as well as the Syrian 
moderate resistance. We know that for sure.
    We know that we are going to have to have the air support 
necessary to support us as we do that. That is the minimum.
    But we also--that requires response forces in case our 
troops get into trouble that are there advising. So we have to 
have forces that are readily available in Kuwait and other 
places. That is the minimum.
    It we decide that is not working and the President makes a 
decision that we have to do reassessment and we decide to use 
more forces, then we will have to be prepared to do that. And 
that is the concern. Are we prepared to do that, and do we have 
the readiness to accomplish that mission if necessary.
    Mr. Ashford. If you would, just get from your perspectives, 
I know----
    General Dunford. Congressman, you know, I guess the only 
thing I would add is--I mean, there are two trends that 
really--when you talk about dynamic, is the Shia-Sunni issue 
and then violent extremism in the region. So this is--it is a 
dynamic environment, and we do know what we are trying to do in 
Iraq and Syria specifically. What we don't is what is going to 
happen even into 2016, which makes our readiness to deal with 
the unexpected all the more important.
    General Welsh. Congressman, I think the--as you mentioned, 
the problems are dynamic, and I think that is what we expect: 
more instability, more uncertainty, new groups arising, just 
like ISIS kind of surprised most Americans as it appeared.
    I think that will lead to frustration here in the U.S. It 
will lead to frustration on the ground and with the folks doing 
the air campaign. And I think that will lead to more debate on 
the best approach to take as the situation changes again.
    And so I think this will be an ongoing discussion. I think 
that Ray was exactly right in saying that we are going to have 
to continue the operations we are executing now, we have to 
continue to execute them well, and they have to be done in a 
manner that allows us options as this dynamic situation 
develops.
    Mr. Ashford. It is just to see--to observe what is going 
on, and the exceptionalism of the team over there is beyond 
anything. So thank you very much.
    The Chairman. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Thirty minutes before this hearing began, the embargo on 
Congressman Price's proposed House budget was lifted. It was 
embargoed until 9:30 a.m. this morning.
    And I have got some preliminary questions, and Secretary 
McHugh, I hope you can assist me with those.
    First, what does the President request as his base budget 
for national defense?
    Secretary McHugh. How about I give you the Army number?
    Mr. Brooks. Does someone here have the total number for 
national defense from the President, his budget?
    Secretary McHugh. It is $571 billion--$561 billion.
    Mr. Brooks. $561 billion is the base. And then how much for 
overseas contingency operations?
    Secretary McHugh. Well, again, for the Army, it is $20 
billion.
    General Odierno. I think it is very close to $50 billion.
    Secretary McHugh. $50 billion.
    General Odierno. About $48 billion, I believe, is the 
number.
    Mr. Brooks. Okay, I have got it as $51 billion. Does that 
sound about right?
    General Odierno. Sounds about right.
    Mr. Brooks. And that would give us a total, then, of $612 
billion. Does that sound about right for OCO and President's 
base budget request?
    Now, the Budget Control Act has a limitation on base of 
$523 billion, so the President's proposing a budget that is, if 
my math in my head is correct, about $38 billion more than what 
the Budget Control Act says is permissible.
    Does anyone have any explanation for how he can do that, 
how he can just disregard the Budget Control Act of 2011 and 
throw out a budget that is $38 billion more than its 
limitation?
    No one?
    Secretary McHugh. I won't speak to the law. You directed--
you asked if I could perhaps help on this.
    I can tell you in discussions at OSD level, the President 
believes the sequestration level is so irresponsible that it 
cannot----
    Mr. Brooks. Secretary McHugh, if I could interject, because 
I have very limited time.
    Secretary McHugh. Sure.
    Mr. Brooks. I am looking for the legal explanation, not the 
policy explanation.
    No--I didn't hear anyone come up with a legal explanation.
    Secretary McHugh. Well. I am a title 10 authority, I don't 
have legal responsibility from the Department of Defense.
    Mr. Brooks. All right. Let me move on then to Congressman 
Price's proposed House budget.
    He starts, according to page 40 of his news release, graph 
S5. I don't know if you have had a chance to review it. He has 
got the basic $523 billion, but then he has $94 billion for OCO 
in order to go beyond what the President has requested for 
national defense and that OCO is defined as ``global war on 
terrorism.''
    Of that $94 billion for OCO, $20.5 billion is some 
amorphous thing called Reserve, which we may or may not ever 
see. So it might actually be $70-some odd billion that is in 
OCO as opposed to the $94 billion that is in these graphs for a 
rough total of around $617 billion.
    Now, my question is kind of akin to what Congressman 
Fleming was asking. Does it make any difference to the 
Department of Defense if the money comes to the Department of 
Defense via the base versus overseas contingency operations?
    How does that affect your ability to do what needs to be 
done? Would anyone like to respond to that?
    Secretary McHugh. I think I addressed that earlier when I 
said that for the Army receiving relief through our end-
strength provisions above 450 [thousand] provides us $4.2 
billion in 1-year relief.
    Mr. Brooks. Can you do----
    Secretary McHugh. I am trying to explain----
    Mr. Brooks. Okay. Well, I have got only a minute and 10 
seconds left, so let me move onto something more specific.
    Littoral Combat Ships that are being built in the State of 
Alabama, Secretary Mabus, can that be built out of OCO funds?
    Secretary Mabus. Under the current rules, I don't believe 
that any new construction can be. We can do repair.
    Mr. Brooks. So we can't use them for that purpose. Not as 
good as base money in that instance then? Is that a fair 
statement.
    Secretary Mabus. I believe that is correct.
    Mr. Brooks. Let's look at Redstone Arsenal. We do a lot of 
missile defense. Can you do missile defense out of OCO moneys?
    General Odierno, do you know?
    General Odierno. As far as I know, we are not able to do 
that. It depends, but right now, we do not have the 
flexibility.
    It is about flexibility in the OCO budget. We would have to 
have enough flexibility to do that, and we don't know how it is 
defined, so it would be difficult to give an answer.
    Mr. Brooks. Is it fair, then, for me to conclude that, as I 
am looking at the proposed House budget, that it is a whole lot 
better for the money to be in base as opposed to OCO. And to 
the extent it is in OCO, it does have some adverse effect on 
our national security capabilities.
    Would you agree with that, Secretary McHugh?
    Secretary McHugh. Yes, sir. I did earlier. It presents some 
challenges.
    Mr. Brooks. Secretary Mabus, would you agree with that?
    Secretary Mabus. Yes, I would. It would be better to be in 
base.
    Mr. Brooks. And Secretary James, would you agree with that?
    Secretary James. Yes.
    Mr. Brooks. Does anyone have a judgment as to how much 
worse our national security would be if it is in OCO as opposed 
to base?
    Secretary James. The worst of all is if we don't get this 
fixed through some mechanism.
    Mr. Brooks. Right. Thank you, ma'am.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Secretary Mabus, I was really happily surprised to see you 
devote so much time to power and energy initiatives in your 
written testimony. Your comment about fuel being used as a 
weapon particularly struck out to me. I have always felt that 
there is a strategic imperative to energy use in the Department 
of Defense.
    In fact, in 2003 and 2007, DOD put out numbers that said 
that 80 percent of all supply trucks on the road in Iraq and 
Afghanistan were conveying fuel. In that same time period, over 
3,000 Americans, troops and contractors, were killed in fuel 
supply convoys.
    Every time we talk about energy initiatives within DOD, 
somehow what gets lost in the conversation are the national 
security implications of what you and other services are trying 
to do.
    It is not about--just about going green or trying to 
achieve some larger environmental goal. It is actually about 
developing technologies that will lighten the loads of our 
soldiers and marines. It is about developing technologies that 
will allow a platoon of soldiers and marines to push further to 
bring the fight into the enemy territory because they are not 
dependent on huge logistical tails.
    It is also about enabling greater persistence range, 
endurance, and time on station for vehicles shipped in 
airplanes. It is about being able to project greater and more 
lethal power. Anything that enables us to do that, I am all 
for, and I think it should be embraced.
    Mr. Secretary, could you outline some of the innovative 
energy initiatives the Navy is undertaking specifically 
touching on what they will enable the Navy to do in tactical 
and strategic terms?
    Secretary Mabus. Thank you so much. And I couldn't be more 
articulate than you just were on that. But some of the specific 
things that we are doing in energy efficiency, we are doing 
everything from hull coatings to changing the light bulbs to 
doing voyage planning, to putting electric drives on some of 
our larger ships for slower speeds, to building an all-electric 
ship.
    The Marines, as always, are leading the way here. And your 
statistic about we were losing a marine killed or wounded in 
Afghanistan for every 50 fuel trucks that were brought in. That 
is just too high a price to pay.
    We have got SEAL teams now in the field that are pretty 
much net-zero in terms of energy. They make their energy where 
they are and they make their water where they are. For a Marine 
company, by using solar power to power radios, GPSs [Global 
Positioning Systems], they save 700 pounds of batteries per 
company. And they don't have to be resupplied with that.
    In a larger, more strategic scale, the ability to use fuel 
as a weapon and the volatility of fuel prices that go up 
dramatically and down dramatically, creates immense problems 
for us in terms of being able to pay for that fuel and being 
able to plan for how much that fuel is.
    And we are moving to non-fossil fuel sources to provide 
some competition in the fuel market, but also to smooth out 
that volatility and to create American jobs, and to have a 
home-grown source of fuel.
    Ms. Duckworth. Thank you.
    Secretary McHugh, can you talk a little bit about some of 
the Army initiatives? I would think that if you could have an 
LSA [Logistics Support Area] that could produce some of its own 
fuel on base and keep, you know, a convoy or two of soldiers 
out there running fuel for the generators to run air 
conditioners at Balad or someplace, that would be a good thing. 
Is there--can you talk about some of the Army initiatives?
    Secretary McHugh. Well, thank you very much, Congresswoman. 
As we have discussed before this committee in the past, it 
really is, as you so accurately put, a matter of soldiers' 
lives. And that is particularly true with respect to our 
operational energy programs.
    We have constricted our energy utilization by about 17 
percent in recent years. The frustrating thing is the cost of 
that energy nevertheless continues to rise. But having said 
that, we think we have a responsibility to our soldiers, as 
again you noted, to lighten their load.
    Like our friends in the Marine Corps, we have reduced 
weights in necessary equipment for battery usage. We have solar 
blankets that can be used in just about any climate, to charge 
various radios, to charge our battery supplies, significantly 
lessening the load.
    And we have also, through the use of more efficient 
engines, caused our need to resupply for fuel while forward 
much less demanding, much fewer occasions.
    Again, to the strategic aspects of this, as Secretary Mabus 
said, this is a matter of, yes, the environment, but it is also 
of saving dollars. And I would be happy to provide you 
additional information on how we have done that back home.
    Ms. Duckworth. I would appreciate that. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    I appreciate this panel being here today. Obviously, it is 
always good to see all of you. I appreciate your service.
    But this question is directed to Secretary James. It is in 
reference to the CHAMP [Counter-electronics High Power 
Microwave Advanced Missile Project] system. Congress directed 
the Air Force to develop CHAMP system on a cruise missile in 
the fiscal year 2014 NDAA, and added $10 million to the fiscal 
year 2015 Omnibus Appropriations for the Air Force to build the 
system.
    The capability the COCOMs have asked for--asked this 
committee for and right now it is a cost-effective way, and you 
talked about affordability, obviously, and we are looking to 
save money in areas that we can. But it is very cost-effective 
for us and very expensive for our adversaries to try to defeat.
    America is leading the world in technology at the moment, 
but near-peer nations are catching up, you know, at a time when 
we really don't need that, and we certainly shouldn't deploy or 
delay deployment of this particular weapon system.
    Despite the obvious benefits and the low-cost timeliness of 
the closing of the technology gap and authorization, 
appropriation, and outright encouragement by this Congress, and 
I was briefed earlier this year that the Air Force is not fully 
committed to building CHAMP by 2016.
    And this is not a limitation on technology, authority, or 
funding. So please tell this committee, myself, if there is any 
reason the Air Force can't deliver CHAMP in 2016.
    Secretary James. So Mr. Nugent, I am going to yield to the 
chief because I am going to admit I do not know a great deal 
about this program, but it is one that I am going to look into 
more, you know, based on your bringing this to our attention. 
But I will yield to the chief on this.
    General Welsh. [inaudible]--in fiscal year 2015 NDAA to 
look at a new way of moving this thing on a--of moving this--of 
using this weapon on a platform that is actually going to be 
survivable and operational beyond the COCOM.
    The second thing we wanted to do is do more tech maturation 
on the technology. We want it to have a longer range. We want 
it to be more efficient. We want it to be more effective and 
more survivable.
    So that is the near-term focus. We want to produce a family 
of electromagnetic weapons. So the idea of walking away from 
this concept is just simply not true.
    One of the problems we have had that has made us 
inefficient in getting started on this program, and this is 
Mark offering an opinion to you now, sir, is that we have built 
weapons and electronic warfare capabilities in two separate 
capability portfolios.
    So, what our A5/8 on the Air Staff has done, recognizing 
this problem several months ago, he directed a cross-functional 
study to bring our electronic warfare folks and our weapons 
producers together, which is where CHAMPs has to work, and 
tasked them to give him a study on the future of this weapons 
approach. And it is due this summer.
    So we will be informed this summer on this, but to your 
specific question: Do we plan to produce this weapon by fiscal 
year 2016? No, sir, we can't get there from here.
    Mr. Nugent. What is amazing to me, General, with all due 
respect, is that this system has been tested and works on a 
current system that we have--the cruise missile. And we have 
some in inventory because we had to--because of the INF 
[Intermediate-Range Nuclear Forces] Treaty, you know, and it 
works.
    Now, they have also increased the capability of the system. 
And obviously, we are not in a classified setting to talk about 
that increase to it, but the COCOMs have indicated that to get 
it out in the field today is better than, you know, while yes, 
it would be great to have a reusable platform in the future, 
and I think the Air Force should continue on that venture, but 
to get it out into the field in a relatively short period of 
time, at a relatively low cost by using existing platforms, it 
is a stop-gap.
    I mean, it is something that you fit in knowing full well 
that the long-term is you need to have a long-term approach, 
but today it would give the warfighters, the Navy and the Army 
and those that will need that capability right now. And right 
now, I mean in terms of within a year or two versus 10 years 
out kind of development.
    General Welsh. Congressman, munitions in general are a 
major issue for us right now. The funding that we have put 
against munitions is prioritized with precision weapons that we 
have been using for the last 15 years on the battlefield. And 
our stocks are depleted markedly.
    So that is where the priority has been. I would love to 
have the folks on my staff who are working this issue come sit 
and talk to you and get your view of this problem and how you 
see the future for it. And then sit and tell you exactly where 
we are in this study effort. Would that be fair?
    Mr. Nugent. That would be fair. Thank you.
    I yield back.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    My questions today are directed to Secretary Mabus and 
Admiral Howard. I appreciate the time both of you have spent in 
my district. Admiral Howard, your remarks at the christening of 
the Montgomery were just fabulous. Thank you.
    Secretary Mabus, what are the likely impacts to the 
Littoral Combat Ship [LCS] program of slowing or breaking 
production in fiscal year 2016, 2017, and 2018, as we move 
toward implementing the design upgrades in fiscal year 2019?
    Secretary Mabus. We have a block buy, as you know, on the 
Littoral Combat Ships, and they are in full serial production 
now. We have driven the cost down because of that, from a 
beginning cost per hull of about $800 million, now to the ones 
coming off the line of about $350 million. If you break that 
serial production, if you break that block buy, you, number 
one, lose some very skilled craftsmen that it is very hard to 
get that back. The industrial base impacts are enormous.
    Number two, you end the economies of scale that we have 
now, and the ability to do these ships one after the other.
    Number three, after the small surface combatant task force 
looked at how to make these ships more lethal, more survivable, 
they have come up with a package after an exhaustive look at 
every possible type ship, every possible type upgrade, that for 
about $75 million a ship, it is going to be far more lethal, 
far more survivable, and you can fit it onto this hull.
    But to keep that--those dollars, both for the hull costs 
and for the upgrade costs in those bounds at all, you have to 
keep this serial production going. You have a production break, 
you are going to be looking again at a first of a ship class, 
far more expensive. You are going to be looking at job training 
that you will have to do because you will have lost so many of 
these tradesmen. It would be not only for the LCS and its 
follow-on, the frigate, that will be the same ship, just 
upgraded.
    I cannot overemphasize how devastating it would be to break 
production for economic reasons, because you are going to end 
up getting fewer ships at a much higher cost, so any economies 
that you might think you were getting would just disappear.
    It is--I think I used the term, it is a bizarre way to 
approach shipbuilding.
    Mr. Byrne. Thank you.
    Admiral Howard. There is also warfighting and operational 
aspect. When you slow down the build rate of the ships, we are 
producing these ships to replace our aging mine countermeasure 
capability. They will replace the frigates, and the last of our 
frigates are being decommissioned this year.
    That ship right now coupled with the Fire Scout, 
tremendous, you know, ISR capability potential. She is going to 
bring flexibility and agility to some of our mission sets, and 
the longer we stretch out that gap as the frigates go away, the 
less we can offer up to the COCOMs' needs.
    Secretary Mabus. Finally, Congressman, we have a need, a 
demonstrated need for 52 of these small surface combatants. We 
will not get there under the current budget, under the current 
bill plan until 2028. So to Admiral Howard's point, we will be 
low in terms of these for the next more than a decade.
    Mr. Byrne. There has been some comment about the fact that 
it had this redesign coming from the task force that looked at 
it. Isn't it par for the course that we change ships as we 
understand new circumstances, Admiral, that--for example, on 
both our DDGs [guided-missile destroyers] and Virginia-class 
submarine we have had to make some redesigns and changes, 
because we have learned new things and there are new 
circumstances out there. So is it any different with regard to 
the redesign of the LCS to become a frigate? Is it just our 
responding to the new circumstances we have discovered?
    Admiral Howard. So you are quite right, that is the very 
essence of modernization for all of our services. And then for 
capital ships that certainly takes an amount of time.
    The genius of LCS was to create the mission packages, the 
weapons systems, separate from the platform, so that we could 
more quickly adjust to emerging threats.
    Mr. Byrne. Well, I just want to thank you both, because I 
know how hard you have worked for the fleet in general, but my 
particular concern has been the LCS, and I appreciate your 
leadership on that, and you will have the continued support of 
this Congressman as you do so.
    And I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you to all 
of the witnesses here today. I want to direct my question to 
Secretary McHugh. Today and recently at a Senate hearing, you 
said ``Because of sequestration, the Army will reduce its end 
strength to unconscionable levels by 2019, likely losing 
another six brigade combat teams and potentially a division 
headquarters along with associated effects to support 
infrastructure.''
    As you know very well, Fort Drum is home to the 10th 
Mountain Division which I am privileged to represent, and you 
for so many years represented with great honor and an 
exceptional record. It is extremely unique in terms of its 
training capabilities, power projection, and regional location 
in order to support our Armed Forces.
    This installation has already experienced these devastating 
cuts first-hand, with the deactivation of one of its brigades, 
dilapidated World War II-era buildings still being used, and 
the potential loss of 16,000 soldier and civilian jobs due to 
another round of sequestration in the BCA. These cuts, as you 
know, would have a huge economic impact on New York and the 
Northeast as a whole.
    Fort Drum is a training hub for all service branches and 
houses the Army's most deployed division since 1990.
    Because of the potential cuts to training facilities and 
troop count due to sequestration, would you be able to give us 
your thoughts on how these cuts to Fort Drum and other 
installations like it would impact the Army's current and 
future missions overseas?
    Secretary McHugh. Thank you, Congresswoman, and best wishes 
representing a place I obviously think is pretty special.
    As I said in my opening comments, the reality of 
sequestration is simply this. Virtually every post, every camp, 
every station, every program that the Army conducts will see 
significant reductions. Mathematically it is inescapable. And 
that includes Fort Drum.
    We are blessed as an Army to have a great plethora, if you 
will, of amazing bases that in places like the north country, 
in your district, support and provide an incredibly effective 
training ground and a very welcoming home.
    But what we are faced with as all of us have said here 
today are the realities of the numbers that the budget would 
provide. And at 420,000, as you know, we are currently looking 
at possible reductions for our major military installations of 
up to 16,000. So that is in play.
    I think there is an irony here. I went through three base 
closure rounds, and I understand how painful they are. And I 
lost a base in Plattsburgh, New York. Thanks to the great 
efforts of the community, that part of the world came back, but 
it wasn't easy and it took a lot of hard work. So I recognize 
and fully understand the hesitancy of many members.
    But here is the reality: without the support of a base 
closure round we are forced, rather than to take excess 
infrastructure where we believe it exists, and spread these 
cuts almost in a peanut butter kind of fashion, across all 
bases, across all installations, and it is not just a matter of 
end strength, it is to the point that you made our ability, or 
inability really, to keep up the facilities that our soldiers 
and their families rely upon and call home.
    So this is a very dangerous spiral in which we find 
ourselves, and while ultimately as a military, we are most 
concerned with meeting the Nation's defense needs, where at 
sequestration, as the chief and I have both testified, we feel 
we can't meet the Defense Strategic Guidance, but it is also a 
question of the inability at sequestration levels of providing 
a good home and adequate training facilities, like we currently 
enjoy in places such as Fort Drum.
    Ms. Stefanik. I agree with your concerns about 
sequestration. I have been a strong voice against the sequester 
in terms of the long-term impact on our readiness. And frankly, 
I believe it puts our troops' lives at risk.
    So thank you very much for your service, both to the north 
country, but to this country. Thanks.
    Secretary McHugh. And thank you for yours.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thanks all of you 
for your testimony. I think it has been a long day, but I 
appreciate your patience.
    General Odierno, I would like to ask you, you have said in 
the past, ``Our soldiers are very confident in the A-10.'' Is 
that still true? Just yes or no, I have got a lot of questions 
if you don't mind.
    General Odierno. They are confident in the A-10, yes.
    Ms. McSally. And you have also said, ``that your soldiers 
prefer the A-10.'' Is that still true, yes or no?
    General Odierno. It depends on the environment.
    Ms. McSally. Okay, thank you, sir.
    And you have also said that, ``the A-10 is the best close 
air-support platform we have today.'' Do you still believe that 
to be true?
    General Odierno. In Iraq and Afghanistan.
    Ms. McSally. Okay, thank you, sir.
    And I just want to do a shoutout to the A-10 units right 
now that are deployed in the fight against ISIS, and also the 
354th Fighter Squadron which I commanded is deployed over to 
the EUCOM [European Command] theater right now to ensure and 
train our allies with Russia's increased aggression.
    So, Secretary James, you know, just given General Odierno's 
statements that he just reaffirmed, is the decision to mothball 
the A-10 a budget-based decision only?
    Secretary James. It is driven by the budget, Yes.
    Ms. McSally. Just by the budget.
    So if you had more money, you would keep the A-10 in the 
inventory?
    Secretary James. I would, yes.
    Ms. McSally. Okay, great. So I think you think your budget 
request is about, what, $10 billion over the sequester number? 
Or what is----
    Secretary James. Ten billion, and I have to add that we 
would need dollars above the President's budget level.
    Ms. McSally. That is what I am getting at. So how much more 
money would you need above the President's budget request in 
order to not mothball any A-10s.
    Secretary James. I think the 1-year cost would be on the 
order of between $400 and $500 million, but please let me check 
that to be sure. But if you look over the 5-year period of 
time, it is closer to $4 billion.
    Ms. McSally. Got it. I have heard you say $4.2 billion, but 
just for next year, would you guys get back to me what that 
cost would be? And I am assuming there may be--are there other 
unfunded mandates, or other unfunded requests above that, or if 
we were able to get you another $400 million, $500 million, 
would you keep the A-10 in the inventory?
    Secretary James. I would like to yield to the chief on 
that.
    Ms. McSally. How much more money do you need to keep the A-
10?
    General Welsh. We would have to go look at it, because it 
is beyond the A-10. We have to look at where we develop 
manpower now, for new maintenance for new airplanes that are 
being fielded. So it is beyond just the cost of the A-10. But 
the A-10 cost is $4.2 billion for the FYDP [Future Years 
Defense Program]. It $520 million or so this year.
    Ms. McSally. Yes, great. Thank you.
    And I noticed in the discussion last year, and this is a 
very important one, because we are talking men and women on the 
ground under fire in harm's way, and making sure they have the 
best capability overhead, especially when they are in close 
proximity with enemies and friendlies where they need long 
loiter time and firepower and survivability in that 
environment, and that is where the A-10 brings the best 
capability overhead. So this is really important.
    I know in the past there has been a discussion, it has been 
said the A-10 is old, the A-10 is aging, and we need new 
capabilities. But I noticed in your testimony you highlighted 
that your youngest B-52 is 53 years old, and you would like to 
keep it in the inventory until 2040, which by my math, that 
would mean your youngest B-52 would be 78 years old in 2040, 
and so you are keeping an aging airplane that certainly can't 
survive in a high air-defense environment, like the B-52, but 
we have heard the argument in the past that the A-10 is old. We 
have invested over a billion dollars in it to rebuild its 
wings, in the A-10C, and its avionics and the capabilities.
    So those two things seem to be sort of contradictory. So I 
just want a comment on that.
    General Welsh. We don't have the B-52 in the inventory by 
choice. If you will recall, the B-2 was supposed to replace a 
large part of that fleet, but that buy was stopped at 20 
aircraft.
    So that is why we are building the Long-Range Strike Bomber 
now, because we need 80 to 100 bombers.
    The same thing is true with the A-10. We don't want the A-
10 to be flying this mission when it is 50, 60, 70 years old. 
That is not fair to the sons and daughters of America.
    Ms. McSally. Right. So, okay, the B-52 is still flying 
because we don't yet have a capability to replace it. But the 
A-10 is being asked to be mothballed but we don't have a 
capability yet to replace it, even though it can fly until at 
least 2028 and 2030. So how does that----
    General Welsh. The A-10 is being retired because of the 
Budget Control Act.
    Ms. McSally. Okay, got it. So right now----
    Secretary James. Of course we do have the other aircraft 
that can cover the mission of close air support. That is the 
other reason----
    Ms. McSally. Not under those circumstances that I 
mentioned, having flown the A-10 in combat. There are unique 
circumstances where only the A-10 can save lives. Would you not 
agree with that, Secretary James?
    General Welsh. I do not agree with that. I think there are 
circumstances where you would prefer to have an A-10. We have 
priced ourself out of that game.
    Ms. McSally. Okay, so it is a budget issue.
    General Welsh [continuing]. Every option available----
    Ms. McSally. If we had the funds and with the current wings 
rebuilding the A-10C, is it 2028 still where it could fly until 
before it needs to be retired?
    General Welsh. 2028.
    Ms. McSally. 2028? Okay, great. And right now, the plan is 
to replace the A-10 eventually with the F-35, is that true?
    General Welsh. The F-35 will be the high-threat CAS 
platform of the future.
    Ms. McSally. Okay, so the A-10 will be replaced by the F-
35?
    General Welsh. The F-35 will take the place of the A-10 and 
the F-16 eventually. But in the CAS arena, we will replace the 
A-10 capability more near term with F-16s and F-15Es, and we 
will augment that with the B-1 when the scenario allows us to, 
even the B-52, the AC-130, et cetera, but we will eventually 
have the F-35 as the high-end CAS platform.
    Ms. McSally. Yes, sir. Got it. My time has expired. I know 
we have talked about this before, but I don't believe the F-35 
replaces the A-10 and the capabilities it brings to the fight 
for General Odierno's troops to make sure that they live to 
fight another day and get home to their troops.
    I love the F-35. It is a great airplane, but it doesn't 
replace those capabilities.
    General Welsh. I love your pin.
    But the A-10 also cannot operate in a high-threat 
environment and provide close air support. He might need an----
    Ms. McSally. Absolutely, we need all of those capabilities.
    Thank you, Mr. Chairman, I appreciate it----
    The Chairman. Okay, you all aren't going to decide this 
now, but I appreciate the discussion.
    Ms. McSally. We are going to do this outside, and----
    The Chairman. Thank you all for your patience. I think 
maybe we just have a couple more.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And really 
appreciate your service, your leadership, and both the 
appointees by the administration, as well as the service chiefs 
here today.
    And I think if nothing else comes from your financial 
stress, the stress to our military, is the fact that we are 
going to have to start having different debates on the foreign 
policy that you have nothing directly to do with.
    I looked at this week--and I heard Mr. Rogers, and I want 
to bring this up very quickly, and I want to ask a very simple 
question that you might or might not be able to answer.
    These are articles this past week: ``between casualties and 
desertions, Afghan military is shrinking fast''; ``Afghan 
officials sanction murder, torture, rape, says report.'' This 
past week in the New York Times, ``CIA [Central Intelligence 
Agency] cash ended up in coffers of Al Qaeda.'' That is what is 
the problem for Congress to help you get the proper funding for 
your military. That is not your doing or your fault. That is 
the fault of the administration and of Congress itself. Because 
you follow orders in uniform, and you are there because the 
President selected you to be the service chief, and he has 
confidence in you.
    That is the problem, is that we continue to find absolute 
millions and billions of dollars to spend in Afghanistan. And 
yet we get these articles. You didn't write the articles--you 
can't help it. But this is the problem that the American people 
have, because they do read the articles. That does not take 
away from their respect of you and your services. Not one--not 
at all.
    But when you cannot sell them--I heard General Welsh--and I 
agree with you, sir, you said, we haven't done much to help 
with the infrastructure--to build the infrastructure of the Air 
Force. We can't build the infrastructure of America, but yet we 
are spending billions of dollars so Afghanistan can build its 
infrastructure. That is the contradiction that is presenting 
the problem with this debate about whether we have 
sequestration or we don't have sequestration.
    I asked General Campbell last week, a very impressive Army 
general who now oversees the military action, I guess, in 
Afghanistan. And I was a little bit taken back by his answer 
when I asked him this question--and I am going to get to you in 
just 1 second.
    Do you ever get a chance to tell whomever you answer to 
that 9 more years in Afghanistan of spending roughly $25 to $50 
billion a year is worthwhile? Do you get a chance to say, well, 
I think maybe in 3 years, we give them benchmarks, and if they 
can't reach those benchmarks, then we say, we are out. And his 
answer was fine. In fact, I got copies of it. He said that he 
is--his hope is, and that he believes that this would be the 
star of Central Asia. Well, every history book I ever read 
said, you ain't going to change it no matter what you do.
    I want to know, in informal settings, do you, in the 
military, who are here today, in uniform, get a chance once a 
month or once a week to sit down with General Dempsey, take off 
your ties, relax, have a beer or a glass of wine or whiskey, 
and talk about where we are going in this country and how it is 
impacting our military?
    To the service chiefs--and I have got 1 minute. The service 
chiefs, do you get the same thing with Secretary Carter, of 
whether you get together in a relaxed session and talk about 
the foreign policy of America and how our military is falling 
apart because they are overworked, they are tired, and the 
equipment is overworked and tired? Do you all ever get that 
opportunity? Whoever with the military will go first, and then 
one of the service chiefs, please.
    General Odierno. Mr. Jones, we meet with the chairman 
schedually twice a week, Monday or Friday, usually at least 
once every week. We have formal briefings, but at the end we 
have executive session; we discuss all of these issues in 
detail.
    Mr. Jones. Thank you.
    One of the service chiefs----
    General Welsh. Sir I would offer that Secretary Carter is 
bringing together all of the service chiefs, all the combatant 
commanders, and all of the service secretaries, along with his 
Department of Defense senior leadership this Friday, to have 
exactly the discussion you are talking about--how do we best 
inform the debates on what is best for national security in 
this country.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for your service to our country and thank you 
for your patience today in handling all these questions. And I 
guess I will be finishing up or helping to finish up, and I 
would like to ask about directed energy and missile defense.
    Now the Navy has operationally deployed the LaWS system 
[Laser Weapon System], I think on the Ponce, a directed energy 
weapon which can be used against a variety of threats. I 
believe that directed energy has turned a corner, and is one of 
the keys to our asymmetrical advantage using our technology for 
future security, but I am not sure the other branches are as up 
to date on this as the Navy is. Is anyone other than the Navy 
leaning forward on directed energy?
    General Odierno. We just put $5 million out to--
specifically on laser technology in order to have a competition 
that will allow us to downsize the laser in such a way that we 
can use it against UAVs [unmanned aerial vehicles], mortars, 
rockets. We think there is a great application there and we are 
into that process. Plus for us it is about getting it small 
enough and enough directed energy in order to meet our needs 
and it is absolutely essential, we think, to our future and we 
just recently invested in that.
    Mr. Lamborn. That is great to hear. And Air Force?
    Secretary James. We too have a program. I can't quote you 
the dollar figures. We could get you that for the record. But 
for example, I was just out at Kirtland Air Force Base in New 
Mexico. Air Force Research Laboratory is doing work out there 
with lasers and directed energy.
    Furthermore we are testing an aircraft defensive system 
which would have lasers involved and a laser communication 
system. So we have quite an active program as well.
    Mr. Lamborn. That is really good to hear. And I have been 
to the Air Force lab also, and they are doing wonderful work.
    Now on missile defense, I am concerned that some of the 
services may not be taking missile defense capability as 
seriously as I think we have to. For example, the Navy is 
cutting--you thought I was going to let you off the hook there, 
the Navy--is cutting missile defense capable ships from its 
budget. Are each of you--starting with the Navy--are each of 
you committed to missile defense?
    Secretary Mabus. Absolutely, Congressman. And we cut the 
modernization of some of our Aegis destroyers to make them 
ballistic missile defense capable, and we did it purely as a 
budgetary thing. It was one of the hard choices you had to 
make. We need a certain number of ballistic missile defense 
capable ships. And we can meet most of the requirements today. 
We have 4 that will be permanently homeported in Rota, Spain, 
that take the place of about 16 back here because they are 
permanently homeported.
    We are continuing to modernize the Aegis system on our 
cruisers and our destroyers, but not as fast as we would like 
to, and it is all because of the, of the budget situation.
    Mr. Lamborn. Would anyone else like to jump in on that?
    Secretary McHugh. I can add. Obviously the Army with that 
and Patriot is all in with respect to missile defense. It is 
one of, if not the most high-demand low-density assets we have. 
The chief spoke earlier today about the incredible amount of 
deployments we have, and even at that we are still not meeting 
combatant commanders' requirements.
    We would be less than honest if we said that we haven't 
already, through the budget cuts we have experienced in recent 
years, particularly in our S&T programs, not had challenges to 
date. Our Patriot modernization program, our PAC-3 MSE [Missile 
Segment Enhancement] initiative, although continuous progress, 
is not going forward as quickly as we like. We had funds in 
2014 to receive 92 missiles. We will begin to take delivery on 
those later this year. But as we look across the broad range of 
threats, again, as the chief mentioned earlier, we see that 
demand only increasing.
    Mr. Lamborn. Thank you. And Air Force?
    General Welsh. Congressman, I would add that the Air Force 
is heavily involved in command and control for both theater 
ballistic missile defense, national missile defense, missile 
warning architecture, obviously is something we have been 
responsible for, for quite some time.
    We have an awful lot of people who are involved in the 
collection, analysis, and distribution against indications and 
warning, collection targets for missile defense, and then one 
of the four pillars of missile defense of course is offensive 
operations. And our precision global strike capability is 
fundamental to that ability when we get tired of being a 
catcher's mitt.
    Mr. Lamborn. Thank you all very much.
    The Chairman. Thank you all for today, for your 
responsiveness to this committee every day, and, again, for 
your service to the country. With that, the hearing stands 
adjourned.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]

     
=======================================================================
                            A P P E N D I X

                             March 17, 2015

=======================================================================

      
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2015

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. How will the fiscal year 2016 budget request assist 
the Air Force in supporting the rebalance to the Asia-Pacific region? 
How will funding for the Long Range Strike-Bomber (LRS-B) support the 
rebalance? What are we doing to enhance our resiliency in the region?
    General Welsh. The Fiscal Year (FY) 2016 budget will help the Air 
Force support the Asia-Pacific rebalance by strengthening our power 
projection capabilities and resiliency efforts. FY16 funding for LRS-B 
will help the Air Force recapitalize our legacy bomber fleet and 
improve our future power projection capability. LRS-B's long range, 
significant payload, and survivability will provide operational 
flexibility for the Commander, U.S. Pacific Command, while increasing 
our ability to operate in Anti-Access/Area Denial environments. The 
FY16 budget request includes various initiatives designed to enhance 
our resiliency in this theater. These include funding for hardened 
infrastructure to protect key nodes, enhanced airfield damage repair 
capabilities, and expanded locations for future use. Additional details 
can be provided at the classified level to give a fuller picture.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Secretary McHugh and General Odierno, as you know the 
Army's Capstone Concept emphasizes human performance. Can you tell me 
how the Army research community is working to improve the physical, 
psychological and cognitive performance of its soldiers?
    Secretary McHugh. One of our challenges today is how we manage the 
increasingly heavy physical and cognitive loads our Soldiers are asked 
to bear. The Army is developing innovative solutions through systematic 
study of the complex human system to unburden our Soldiers. We are 
focused on understanding the cognitive, psychological, and 
physiological stressors associated with preparation, response, and 
recovery from operational and training environments.
    One major effort for Army Science and Technology is the development 
of a Soldier Systems Engineering Architecture, which will use 
analytical models of cognitive, physical, and psychological performance 
to create linkages among the Soldier, the tasks a Soldier must be able 
to perform, and the technical performance requirements of equipment 
used to execute specific missions/functions. These models will allow 
the Army to design better human system interfaces of equipment used 
during dismounted operations, reducing the physical and cognitive 
burden for the Soldier.
    Research in areas such as medical sciences, behavioral and social 
science, neuroscience, biomechanics, learning sciences, and human/
systems integration allows the Army to discover, understand, and 
predict human behaviors in a range of settings from individuals and 
teams to organizations and societies. In addition to advancing 
equipment design, the results of this research will inform 
Institutional and Operational Army processes such as training, human 
resources, and medical care.
    The data from behavioral and social science research provides 
effective non-materiel solutions that provide the Army with improved 
predictability of potential performance, behaviors, attitudes, and 
resilience of Soldiers. The Army believes understanding and applying 
fundamental human/systems science are critical to optimizing the 
physical, psychological, and cognitive performance of our Soldiers.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. What is the impact to depot workload at Budget Control 
Act funding levels? Are you concerned about weapons, missile and 
vehicle inventories? If so, how will sequestration raise your level of 
concern? The Department of Defense base budget is growing while the 
Overseas Contingency Operations (OCO) budget is decreasing. What costs, 
if any, have been moved into the base budget that were historically 
funded through OCO?
    Secretary McHugh. The Army's Industrial Base consists of 
Government-owned (organic) and commercial industrial capability and 
capacity that must be readily available to manufacture and repair items 
during both peacetime and national emergencies. Due to BCA funding 
levels, we are concerned that we will not be able to retain an Army 
Industrial Base that provides unique capabilities, sustains the 
capacity for reversibility, and meets the manufacturing and repair 
materiel demands of the Joint Force.
    The Army will not have the required resources to overhaul or 
modernize: 358 Bradley Fighting Vehicles, 534 Stryker Combat Vehicles, 
192 howitzers, 8 Patriot Advanced Capability (PAC)-3 Launcher Stations, 
20 Patriot Missile Battery Command Posts, 140 High Mobility Artillery 
Rocket and M270A1 Multiple Launch Rocket Systems, over 200,000 small 
arms, and tens of thousands of other combat and tactical systems to 
meet Combatant Commander requirements.
    BCA funding levels, absent the receipt of any required Overseas 
Contingency Operations (OCO) funding, will set conditions that could 
force the Army to idle or adversely impact up to 40% of the current on-
board workforce in the next few years. Impacts would be felt by up to 
1,875 permanent career professionals and 3,372 temporary/term 
government employees and contractors. Regrettably, we could once again 
see the permanent loss of skilled artisans like we did at Corpus 
Christi Army Depot under sequester in FY13.
    The current budget caps and any follow-on imposition of 
sequestration will further challenge our ability to balance readiness 
across the force. Depots will be challenged to retain an effective and 
cost efficient operation, which will cause workload backlogs that can 
take multiple years to complete. As a result, commanders will need to 
expend more resources to maintain a ready fleet.
    Since FY11, the Army has experienced sizeable reductions to both 
its base and OCO budgets. The Army's portion of the DoD FY16 OCO budget 
request represents 40.6% of the DoD total--primarily due to the Army 
providing the majority of the Joint Force engaged in OCO operations and 
its significant executive agent responsibilities for resourcing in-
theater support operations.
    The primary reason for the downward trend in the OCO budgets over 
the last several years is the decreased scale of OCO operations. Our 
withdrawal from Iraq and the changing role and size of the force in 
Afghanistan have significantly reduced demand for OCO funds. As our 
troops return from theater, we must continue to build readiness, 
conduct shaping exercises, and execute home station training, which is 
funded with base dollars. These costs increase our base requirements as 
we work to ensure success in decisive action operations.
    I'm concerned that a number of our OCO missions are evolving and 
becoming more enduring in nature. Operation Spartan Shield and our 
Patriot batteries deployed in the Middle East are examples of missions 
that are currently funded with OCO, but if we were forced to fund them 
in the base, without a topline increase, we would see severe impact to 
our other accounts.
    Mr. Shuster. Recently, the Deputy Commander of the 32nd Air and 
Missile Defense Command stated ``we are rapidly approaching an 
inflection point where we face the risk of breaking our AMD [Air and 
Missile Defense] force.'' There is an acute need for upgrades to our 
PATRIOT units, particularly the radar, many of which still use vacuum 
tubes. How do you believe we can best upgrade this critical component 
of our AMD system?
    General Odierno. I remain concerned about the stress on the Patriot 
force, both our people and equipment, due to the repetitive, long 
deployments around the world. Combatant Commanders' demand for Patriot 
missile battalions and Terminal High Altitude Air Defense (THAAD) 
batteries exceeds our capacity, significantly limiting options in 
emerging crises, and exceeding the Army's ability to meet Department of 
Defense (DoD) deployment-to-dwell rotation goals for these units.
    In a non-sequestration, stable budget environment, it would take us 
more than a decade to begin fielding a new Patriot-class AMD radar and 
another decade or so to complete fielding throughout the force. The 
current uncertain budget environment impedes our ability to fully 
execute our modernization efforts. As a Nation, we must find a 
resolution of this foundational issue. Until a new significantly 
upgraded radar capability can be fielded (a program planned for 
initiation in Fiscal Year 2017 (FY17)), we must continue to improve the 
current Patriot system through a series of modernization and 
modification efforts that are reflected in the FY16 President's Budget 
(PB) Request.
    The FY16 PB request describes the best path to continue to improve 
the Patriot's capability as a critical component of the AMD force. 
Specifically, the Patriot improvements that must continue to be funded 
as requested in the PB are both hardware upgrades to the major 
components (radar, launcher, interceptor, and battle management) and 
software advancements that tie the components together and provide a 
system engagement capability.
    The Army must continue to make improvements in radar capabilities 
to detect and discriminate air and missile threats. To do this, the 
Army is introducing a more capable interceptor and has begun the 
process to transition Patriot components to the Integrated AMD Battle 
Command System networked battle command and integrated fire control 
architecture. It is critical that we continue developing Patriot 
component improvements to counter threats from Tactical Ballistic 
Missiles. Another major radar upgrade, Combat Identification, allows 
the system to identify targets as friend or foe and is part of the next 
increment of Congressionally mandated electronic protection 
improvements.
    Therefore, full funding of the FY16 PB remains critical to ensuring 
the Patriot Weapon System remains modernized and capable to continue to 
protect U.S. and allied forces and their key assets worldwide against 
the current and evolving threat.
    Mr. Shuster. Do you believe that sequestration harms the ability 
for our organic industrial base to meet the needs of the warfighter?
    General Odierno. Yes. The Army's Industrial Base consists of 
Government-owned (organic) and commercial industrial capability and 
capacity that must be readily available to manufacture and repair items 
during both peacetime and national emergencies. We are concerned that 
we will not be able to retain an Army Industrial Base that provides 
unique capabilities, sustains the capacity for reversibility, and meets 
the manufacturing and repair materiel demands of the Joint Force. 
Already, modernization accounts have been reduced by 25% and every 
program affected; maintenance has been deferred; and the defense 
industrial base is increasingly skeptical about investing in future 
innovative systems needed to make the force more agile and adaptive.
    Under sequestration, the Army will not have the resources to 
perform major repairs or recapitalize worn, obsolete or damaged combat 
and tactical systems in our formations. This means fewer systems will 
be available for unit training, or that units will find OPTEMPO funding 
inadequate as they are forced to spend an increasing portion of their 
training funds just to keep their systems operationally ready.
    Sequestration invariably sets conditions for uncertainty in the 
workforce, forcing our industrial facilities to consider employee 
furloughs and hiring freezes. This uncertainty could drive our 
industrial base professionals to seek employment elsewhere, as we saw 
at Corpus Christi Army Depot in FY13. The departure of these skilled 
artisans erodes depot capabilities and takes years to replace.
    Funding reductions, with corresponding workload reductions, degrade 
the depot's ability to maintain an effective and cost efficient 
production operation, increases the average per unit cost of their 
products and creates workload backlogs that can take years to complete. 
These conditions will degrade unit and program manager buying power as 
we endure and come out of the sequester.
    Mr. Shuster. Does the Army still have the capacity to support U.S. 
action in a major, large-scale conflict?
    General Odierno. Last year, we testified before Congress that the 
minimum end strength the Army requires to execute the 2012 Defense 
Strategic Guidance is 980,000 Soldiers--450,000 in the Regular Army, 
335,000 in the Army National Guard, and 195,000 in the Army Reserve.
    Although we still believe we can meet the fundamental requirements 
of the DSG at 980,000 Regular, Guard and Reserve Soldiers, it is a 
tenuous balance. The risk to our national security and our force itself 
continues to increase with rising instability and uncertainty across 
Europe, the Middle East, Africa and the Pacific, along with a growing 
threat to the homeland. Any force reductions below 980,000 Soldiers 
will render our Army unable to meet all elements of the DSG, and we 
will not be able to meet the multiple challenges to U.S. national 
interests without incurring an imprudent level of risk to our Nation's 
security.
    If sequestration returns, it will challenge us to meet even our 
current level of commitments to our allies and partners around the 
world. It will eliminate our capability, on any scale, to conduct 
simultaneous operations, specifically deterring in one region while 
defeating in another. Essentially, for ground forces, sequestration 
even puts into question our ability to conduct even one prolonged 
multiphase, combined arms, campaign against a determined enemy. We 
would significantly degrade our capability to shape the security 
environment in multiple regions simultaneously. It puts into question 
our ability to deter and compel multiple adversaries simultaneously. 
Ultimately, sequestration limits strategic flexibility and requires us 
to hope we are able to predict the future with great accuracy. 
Something we have never been able to do.
    It is imperative we maintain strategic and operational flexibility 
to deter and operate in multiple regions simultaneously--in all phases 
of military operations--to prevent conflicts, shape the security 
environment and, when necessary, win in support of U.S. policy 
objectives. The Army is and will continue to be the backbone of the 
Joint Force, providing fundamental capabilities to each of the 
Combatant Commanders such as command and control, logistics, 
intelligence and communications support to set the theater, as well as 
providing ground combat forces, Special Operations Forces and Joint 
Task Force headquarters. Demand for Army capabilities and presence 
continues to increase across Combatant Commands in response to emerging 
contingencies.
    Mr. Shuster. Do you feel that the sequester hurts the ability for 
our depots and industrial base installations to remain ``warm'' by 
maintaining a consistent workload?
    General Odierno. The Army's Industrial Base consists of Government-
owned (organic) and commercial industrial capability and capacity that 
must be readily available to manufacture and repair items during both 
peacetime and national emergencies. We are concerned that we will not 
be able to retain an Army Industrial Base that provides unique 
capabilities, sustains the capacity for reversibility, and meets the 
manufacturing and repair materiel demands of the Joint Force. Already, 
modernization accounts have been reduced by 25% and every program 
affected; maintenance has been deferred; and the defense industrial 
base is increasingly skeptical about investing in future innovative 
systems needed to make the force more agile and adaptive.
    Sequestration hurts the ability of our depots and industrial base 
installations to remain ``warm.'' Funding reductions, with 
corresponding workload reductions, degrade the depots' ability to 
maintain an effective and cost efficient production operation, 
increases the average per unit cost of their products, and creates 
workload backlogs that can take years to complete.
    The current Budget Control Act budget caps and any resulting 
sequester will set conditions for uncertainty in the workforce and 
industrial facilities will be forced to consider employee furloughs and 
hiring freezes. This uncertainty could drive our industrial base 
professionals to seek employment elsewhere, as we saw at Corpus Christi 
Army Depot in FY13. The departure of these skilled artisans erodes 
depot capabilities and takes years to replace.
    Mr. Shuster. Our military men and women have maintained a high 
operations tempo for more than a decade. To complicate matters, they 
have endured a myriad of force reduction initiatives amid growing 
security threats globally. How have these factors impacted your 
service's capability to ``surge'' forces in response to a major 
contingency, both in terms of response times and overall capacity?
    General Odierno. The Army has fewer fully ready and available units 
to source major contingency surge requirements.
    And the number one thing that keeps me up at night is that if we 
are asked to respond to an unknown contingency, I will send Soldiers to 
that contingency not properly trained and ready. We simply cannot 
afford to do that. The American people expect our Soldiers to be 
prepared--that they have had the ability to train, that they understand 
their equipment, and that they have been able to integrate and 
synchronize their activities so they are successful on the ground. I 
worry that we may receive a request from a combatant commander that we 
just aren't trained for.
    Non-relenting budget impasse has compelled us to degrade readiness 
to historically low levels. Today, only 33 percent of our brigades are 
ready, when we believe our sustained readiness rates should be closer 
to 70 percent. Under our current budget, Army readiness will at best 
flat line over the next three to four years.
    The compromises we have made to modernization and readiness, 
combined with reductions to our force size and capabilities translates 
into increased strategic risk. We are generating just enough readiness 
for immediate consumption. We are not able to generate residual 
readiness to respond to unknown contingency, or to even reinforce 
ongoing operations.
    This is a dangerous balancing act. We have fewer soldiers, the 
majority of whom are in units that are not ready. And they are manning 
aging equipment at a time when demand for Army forces is much higher 
than anticipated.
    The burden of miscalculation and under-investment will directly 
fall on the shoulders of our men and women of the U.S. Army who have so 
ably served this Nation. We simply cannot allow this to happen.
    Mr. Shuster. What is the impact to depot workload at Budget Control 
Act funding levels?
    Admiral Howard. We have not yet recovered from the readiness impact 
of over a decade of combat operations, exacerbated by the imposition of 
a lengthy Continuing Resolution and followed by budget sequestration in 
FY13. These circumstances created maintenance backlogs that have 
prevented us from getting ships back to the Fleet on time and aircraft 
back on the flight line.
    Furthermore, ship depot maintenance backlogs result in increased 
funding needs to cover uncompleted maintenance and more material 
casualties. For aviation depot maintenance, the growing backlog will 
result in more aircraft awaiting maintenance and fewer operational 
aircraft on the flight line available for squadron training. This will 
lead to less proficient aircrews, decreased combat effectiveness of 
naval air forces, and increased potential for flight and ground 
mishaps.
    We continue our efforts to reduce the number of lost operational 
days, but it will take years to dig out of a readiness hole. The FY16 
Navy budget submission is designed to continue our readiness recovery, 
restoring our required contingency operations capacity by 2018-2020 
while continuing to provide a sustainable forward presence.
    Mr. Shuster. Are you concerned about weapons, missile and vehicle 
inventories? If so, how will sequestration raise your of concern?
    Admiral Howard. I am concerned about our national security and our 
ability to execute the Defense Strategic Guidance. As we look to the 
future, the Navy will continue to be globally deployed to provide a 
credible and survivable strategic deterrent and to support the mission 
requirements of the regional Combatant Commanders. Global operations 
continue to assume an increasingly maritime focus, and our Navy will 
sustain its forward presence, warfighting focus, and readiness 
preparations to continue operating where it matters, when it matters. 
We see no future reduction of these requirements and we have focused 
the FY16 Navy budget submission to address the challenges to achieving 
the necessary readiness to execute our missions. In other words, if we 
return to a sequestered budget, we will not be able to execute the 
defense strategic guidance.
    Sequestration also brings negative impacts to our workforce. 
Sequestration in FY13 created an environment of decreased productivity 
and low morale. In the midst of growing workloads, shipyards and 
aviation depots were faced with hiring freezes, furloughs and overtime 
restrictions. These conditions coupled with an uncertain future 
contributed to an early departure of skilled workers and artisans. 
These workforce challenges directly resulted in costly maintenance 
delays at shipyards and aviation depots.
    Mr. Shuster. The Department of Defense base budget is growing while 
the Overseas Contingency Operations (OCO) budget is decreasing. What 
costs, if any, have been moved into the base budgets that were 
historically funded through OCO?
    Admiral Howard. We have made progress in transitioning OCO-funded 
enduring activities to the baseline over the last few years. The below 
table shows Navy programs that have transitioned from OCO to baseline.

----------------------------------------------------------------------------------------------------------------
             Program                 Start                                Description
----------------------------------------------------------------------------------------------------------------
Flying Hours                      FY11         Funded enduring flying hour operations in baseline vice OCO; fund
                                                baseline flying hour operations to 80 percent of training and
                                                readiness matrix
----------------------------------------------------------------------------------------------------------------
Air Depot Maintenance             FY11         Funded enduring air depot maintenance activities in baseline vice
                                                OCO; fund 80 percent of total air depot maintenance requirement
                                                in baseline
----------------------------------------------------------------------------------------------------------------
Ship Depot Maintenance            FY12         Funded enduring ship depot maintenance activities in baseline
                                                vice OCO; fund 80 percent of total ship depot maintenance
                                                requirements in baseline
----------------------------------------------------------------------------------------------------------------
Djibouti Base Support             FY13         Funded enduring base operating support costs for Djibouti in
                                                baseline vice OCO
----------------------------------------------------------------------------------------------------------------
Navy Expeditionary Combat         FY16         Fund baseline operations to 80% of the enduring requirement
 Command
----------------------------------------------------------------------------------------------------------------


    Increased operating tempo required of aircraft and ships in the 
Middle East is funded through OCO. The Combatant Command and the Joint 
Staff expect increased flying and ship operations above baseline levels 
when deployed to the Middle East.
    The Navy continues to work with the Office of the Secretary of 
Defense (OSD) to identify and plan the possible transition of OCO funds 
to the baseline.
    Mr. Shuster. What is the impact to depot workload at Budget Control 
Act funding levels?
    General Dunford. Past Congressional support for the depot 
maintenance program has allowed the Marine Corps to continue war-
related reset and sustain home station depot maintenance without taking 
significant risk in the program. However, the Budget Control Act would 
impact OEF equipment reset and home station repair requirements, 
increase out-year depot maintenance costs, and potentially reduce the 
depot workforce to accommodate a lower workload level.
    General Dunford. Are you concerned about weapons, missile and 
vehicle inventories? If so, how will sequestration raise your level of 
concern?
    General Dunford. Yes. The long conflicts in Iraq and Afghanistan 
have impacted the Marine Corps' weapon system inventory. The Marine 
Corps' weapons and vehicles have been used extensively and 
sequestration would force difficult decisions regarding modernization 
and maintenance. We are currently investing in several critical 
procurement programs, including the Amphibious Combat Vehicle, the 
Joint Light Tactical Vehicle, and the Ground/Air Task Oriented Radar 
while maintaining our current legacy fleet of Amphibious Assault 
Vehicles and Light Armored Vehicles. Funding at the Budget Control Act 
levels would delay the procurement of our investment priorities and 
require additional resources devoted to maintaining our current 
inventory. This will degrade our ability to maintain technical 
superiority over our adversaries. Our legacy tactical mobility, combat 
aviation, and ground systems require significant maintenance to keep 
them operational and only through modernization will we be able to 
maintain our technological edge and field the most capable Marine 
Corps.
    Mr. Shuster. The Department of Defense base budget is growing while 
the Overseas Contingency Operations (OCO) budget is decreasing. What 
costs, if any, have been moved into the base budget that were 
historically funded through OCO?
    General Dunford. The Marine Corps has executed and continues to 
execute its ground equipment reset strategy through Congressional 
support of the OCO budget. Combined with the baseline budget for depot 
maintenance, the Marine Corps is on track to complete its OEF reset by 
2017. We will address future depot maintenance needs in subsequent 
budget requests.
    Mr. Shuster. What is the impact to depot workload at Budget Control 
Act funding levels? Are you concerned about weapons, missile and 
vehicle inventories? If so, how will sequestration raise your level of 
concern? The Department of Defense base budget is growing while the 
Overseas Contingency Operations (OCO) budget is decreasing. What costs, 
if any, have been moved into the base budget that were historically 
funded through OCO?
    Secretary James and General Welsh. The Budget Control Act reduces 
total Active Duty Weapon Systems Sustainment depot funding by  $600 
million (includes OCO). The primary commodities impacted by this 
limitation are aircraft, software, and engines. If sequestration lowers 
customer orders beyond our current planning amounts, our depots could 
face reduced workloads of up to 1.8 million hours and place at risk 
2,000 positions in our depots.
    Yes, there is concern about weapons, missile, and vehicle 
inventories. Sustainment activities underpin readiness. Our weapons, 
missiles, and vehicles continue to remain high Air Force readiness 
priorities. Sequestration will only exacerbate the existing challenges 
we face in our ongoing efforts to restore full-spectrum Air Force 
readiness by 2023.
    The Fiscal Year 2016 Presidential Budget submission maintains the 
delicate balance between capability, readiness, and capacity by funding 
our most critical aircraft depot/engine overhauls, but does not 
represent a move from OCO to the base budget. Our OCO submission also 
represents our careful consideration of a wide-range of weapon systems 
sustainment costs associated with platforms engaged in direct OCO 
operations.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. General Odierno, I know you are a fervent believer in the 
``One Army'' concept. During my 24 years in the National Guard (and 
during the careers of most TAGs [The Adjutant General] out there), we 
have seen the Guard go from what it once was to the force that it is 
today. Without nurturing and funding, the National Guard is at risk to 
return to the force that it was, an underfunded and disrespected entity 
not capable of achieve the high standards of the Army and Air Force 
because the money for training and equipment won't be there. I think 
the reason the TAGs and NGAUS are so vocal these days is because they 
don't want to return to the days of crew drills with toilet paper 
rolls, as useful for Sergeants' Time Training as that was. I know the 
Army has to make the decisions it has to because the budget is tight 
these days, and that's on us. We in Congress must fix that. However, 
this is also why we created the Army Commission to study the issue of 
the proper force structure balance within the Army during these tough 
budget years. Why is the Army moving forward with many cost saving 
measures that involve the National Guard without receiving the results 
of the Army Commission, scheduled for delivery in fiscal year 2016?
    General Odierno. The Army is planning and implementing end strength 
reductions and force structure adjustments in accordance with the 
Fiscal Year 2015 National Defense Authorization Act. Although we 
disagree with the need for a Commission on the Future of the Army, as 
directed in the FY15 NDAA, we will fully support the Commission as it 
examines and assesses the force structure and force mix decisions the 
Army has proposed for Active and Reserve Components.
    Mr. Walz. General Odierno, after the last few years of reduced 
defense budgets, we have consistently heard testimony regarding lower 
readiness levels; could you please explain in layman's terms, and give 
some examples of decreased readiness and what that actually means? How 
much of your service's capacity is consumed by day-to-day, steady-state 
operations? Can you discuss your service's capacity to provide 
additional ``surge'' forces to respond to a major contingency?
    General Odierno. The number one thing that keeps me up at night is 
that if we are asked to respond to an unknown contingency, I will send 
Soldiers to that contingency not properly trained and ready. We simply 
cannot afford to do that. The American people expect our Soldiers to be 
prepared--that they have had the ability to train, that they understand 
their equipment, and that they have been able to integrate and 
synchronize their activities so they are successful on the ground. I 
worry that we may receive a request from a combatant commander that we 
just aren't trained for.
    Non-relenting budget impasse has compelled us to degrade readiness 
to historically low levels. Today, only 33 percent of our brigades are 
ready, when we believe our sustained readiness rates should be closer 
to 70 percent. Under our current budget, Army readiness will at best 
flat line over the next three to four years.
    The compromises we have made to modernization and readiness, 
combined with reductions to our force size and capabilities translates 
into increased strategic risk. We are generating just enough readiness 
for immediate consumption. We are not able to generate residual 
readiness to respond to unknown contingency, or to even reinforce 
ongoing operations.
    This is a dangerous balancing act. We have fewer soldiers, the 
majority of whom are in units that are not ready. And they are manning 
aging equipment at a time when demand for Army forces is much higher 
than anticipated.
    The burden of miscalculation and under-investment will directly 
fall on the shoulders of our men and women of the U.S. Army who have so 
ably served this Nation. We simply cannot allow this to happen.
    Mr. Walz. General Odierno, I can greatly appreciate and understand 
the ``can do'' attitude of our soldiers. However, with the planned 
reduction to an end-strength of 475,000 in fiscal year 2016, and 
perhaps lower numbers in subsequent years, and the steady state high 
operational tempo, are we not putting the same stress and circumstances 
on our soldiers and families that they experienced during the campaigns 
in Afghanistan and Iraq? Are there any units in the Total Army Force 
that are achieving the stated dwell time goals? Do you believe that the 
current Army drawdown plan leaves sufficient end-strength to 
successfully execute your operational missions while maintaining the 
Department's goal of a 1:3 dwell time for Active Duty and 1:5 dwell 
time for Reserve Component service members?
    General Odierno. Force reductions, increasing global demand for 
forces, and the Army's current commitments will place stress on our 
Soldiers and Families.
    The Army has over 5,000 operating force units, and many of them do 
meet stated dwell time goals. However, some major force elements within 
the Active Component are not achieving the department's goal of 1:3 
dwell time.
    Brigade Combat Teams are at 1:1.59
    Patriot Battalions are at 1:1.52
    Component Combat Aviation Brigades are at 1:1.4
    Division Headquarters are at less than 1:1
    The current rate of demand, including un-forecasted requirements, 
and limitations on mobilization authorities' access to the reserve 
component has strained the Army's capacity to meet Combatant Commander 
requirements today, and achieve the Department's dwell time goals. As 
we draw down even further, we will be more challenged to meet dwell 
time goals if demand does not decrease.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRAVES
    Mr. Graves. It is my understanding that the Reserve Component, 
specifically the National Guard, including in my State of Missouri, 
will soon have all the oldest C-130s in the Air Force's inventory. What 
is the impact if the Air Guard's C-130 fleet is not modernized and 
becomes incompatible with new air traffic requirements?
    Secretary James. While all non-compliant aircraft face potential 
altitude restrictions, limiting them to below 10,000 feet mean sea 
level, those aircraft operating from/near major airports, like 
Rosecrans Air National Guard Base in your home state of Missouri, face 
potential takeoff and landing restrictions at those fields. This has 
the potential to significantly impact aircrew training and mission 
readiness. As we continue to pursue mitigation contingencies, such as 
waivers, or letters of agreement, etc., the Air Force is committed to 
making every effort to meet the January 1, 2020 mandate, while 
remaining compliant with prior year legal constraints and within the 
bounds of acquisition laws and regulations.
    Mr. Graves. We face an increasingly dangerous world at a time of 
unprecedented fiscal uncertainty. You've said the Air National Guard 
(ANG) is an operation force, yet the Air National Guard operates the 
oldest F-16s and C-130s in the U.S. Air Force. What impact does the 
declining budget have on keeping the ANG fleet capable of meeting 
overseas and domestic requirements?
    Secretary James. As an operational component of the Air Force, it 
is critically important to modernize the Air National Guard legacy 
weapons systems, to include the F-16 and the C-130. A declining budget 
limits our ability to recapitalize legacy fleets with newer aircraft, 
which in turn forces us to prioritize our modernization efforts. It 
also affects the allocation of Weapons System Sustainment funds and 
critical Flying Hours, which can negatively impact the overall 
readiness of our Airmen. Cost effective modernization coupled with a 
viable Operations and Maintenance program ensures the Air National 
Guard remains a professional, ready, and reliable force.
    Mr. Graves. It is my understanding that the Air National Guard 
(ANG) C-130 fleet will be unusable beginning in 2020 unless there is a 
program to fix various avionics issues to fly in both domestic and 
international airspace. I also understand the U.S. Air Force has a 
program which will get only about 10-15 percent of the ANG C-130 fleet 
minimally compliant by 2020. Do you have any ideas on how to fix this 
program and how this committee can be helpful in ensuring all ANG C-
130s are fully capable and compliant and able to accomplish both their 
critical domestic and overseas missions?
    Secretary James. The European Commission and the Federal Aviation 
Administration (FAA) have mandated the use of Automatic Dependent 
Surveillance-Broadcast (ADS-B) Out, for aircraft flying in their 
airspace. The European guidance requires ADS-B Out compliance by June 
7, 2020 and the FAA deadline is January 1, 2020. These mandates will 
severely limit airspace the C-130 can use without ADS-B Out. All of the 
capabilities required for the C-130H to be compliant are included in 
Increment 1 of the C-130H Avionics Modernization Program, or C-130H 
AMP. Due to the large C-130H fleet size and the relatively short 
timeframe remaining until compliance deadlines, equipping the entire C-
130H fleet with the ADS-B Out capability before the January 2020 
mandate will be extremely challenging. However, the U.S. Air Force is 
committed to accelerating airspace compliance upgrades as much as the 
acquisition process and industry will allow.
    We are working with industry to explore all possibilities for 
reducing the timeline for compliance. The continued support of the 
committee toward removing barriers and accelerating C-130H AMP 
Increment 1 are welcomed and appreciated.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Are you aware of the increasing threat, due to rising 
instability, to U.S. personnel serving in Bahrain? How does the budget 
request ensure that our service members are protected while serving in 
Bahrain and elsewhere? Has the U.S. Navy developed a plan to relocate 
the 5th fleet should instability in the country necessitate? If not, 
will this budget request allow for the U.S. Navy to develop a plan to 
relocate the 5th fleet should instability in the country necessitate? 
If not, why, and when will the U.S. Navy develop a plan?
    Secretary Mabus. Considering the recent developments in the Middle 
East--specifically in Bahrain--what is the current risk to the long-
term viability of the 5th Fleet stationed in Bahrain?
    There has been no change in the status of the relationship between 
COMUSNAVCENT/C5F and the Government of Bahrain. The Government of 
Bahrain continues to fully support hosting Naval Support Activity-
Bahrain (NSA-Bahrain) and its tenant commands. The King and Crown 
Prince have stated their continuing support to the U.S. Navy presence 
in the Kingdom of Bahrain. We do not expect a change in the Bahraini 
government's attitude toward hosting NSA-Bahrain. To date, there are no 
known credible threats to U.S./Coalition forces or bases. There have 
been incidents of direct anti-Western/anti-U.S. (but not specifically 
against U.S. Navy) sentiment.

                                  [all]
</pre></body></html>
